<html>
<title> - AVIATION CONSUMER ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        AVIATION CONSUMER ISSUES 

=======================================================================

                                (110-29)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 20, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

34-801 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York               SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
JUANITA MILLENDER-McDONALD,          York
California                           LYNN A WESTMORELAND, Georgia
ELLEN O. TAUSCHER, California        MARY FALLIN, Oklahoma
TIM HOLDEN, Pennsylvania             VERN BUCHANAN, Florida
MICHAEL E. CAPUANO, Massachusetts    JOHN L. MICA, Florida
DORIS O. MATSUI, California            (Ex Officio)
MAZIE K. HIRONO, Hawaii
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)


























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii
Listing of Hearings on Aviation Passenger Issues and Delays since 
  1999...........................................................    48

                               TESTIMONY

Hanni, Kate, Executive Director, Coalition for an Airline 
  Passengers Bill of Rights......................................    29
May, James C., President And CEO, Air Transportation Association 
  Of America, Inc................................................    29
Meeks, Hon. Gregory W., a Representative in the United States 
  Congress from the State of New York............................     7
Mitchell, Kevin P., Chairman, Business Travel Coalition..........    29
Neeleman, David, Chief Executive Officer, JetBlue Airways 
  Corporation....................................................    29
Ruden, Paul M., Senior Vice President, Legal and Industry 
  Affairs, American Society of Travel Agents.....................    29
Schmidt, Hon. Jean, a Representative in the United States 
  Congress from the State Of Ohio................................     7
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................    12
Steinberg, Hon. Andrew B., Assistant Secretary for Aviation and 
  International Affairs, U.S. Department of Transportation, 
  Accompanied by: Dan Smiley, Operations Manager, FAA Command 
  Center.........................................................    12
Thompson, Hon. Mike, a Representative in the United States 
  Congress from the State of California..........................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    50
Cohen, Hon. Stephen I., of Tennessee.............................    52
Costello, Hon. Jerry F., of Illinois.............................    53
Johnson, Hon. Eddie Bernice, of Texas............................    60
Mitchell, Hon. Harry E., of Arizona..............................    66
Oberstar, Hon. James L., of Minnesota............................    70
Salazar, Hon. John T., of Colorado...............................    72

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hanni, Kate......................................................    74
May, James C.....................................................    92
Mitchell, Kevin P................................................   101
Neeleman, David..................................................   106
Ruden, Paul M....................................................   116
Scovel III, Calvin L.............................................   136
Steinberg, Andrew B..............................................   152

                       SUBMISSION FOR THE RECORD

May, James C., President And CEO, Air Transportation Association 
  Of America, Inc., responses to questions from Rep. Lipinski....   162
Mica, Hon. John L., of Florida, letter to the Hon. Mary E. 
  Peters, Secretary, U.S. Department of Transportation...........     5
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation, responses to questions from Rep. Lipinski...   164
Steinberg, Hon. Andrew B., Assistant Secretary for Aviation and 
  International Affairs, U.S. Department of Transportation, 
  responses to questions from Rep. Lipinski......................   168

                        ADDITIONS TO THE RECORD

Association of Flight Attendants - CWA, AFL CIO, Patricia A. 
  Friend, International President, written testimony.............   172
Health Communications, Inc., Adam Chafetz, President and CEO, 
  written testimony..............................................   180
www.kidsafefilms.org, Jesse Kalisher, Co-Founder, written 
  testimony......................................................   183
U.S. Public Interest Research Group, Edmund Mierzwinski, Consumer 
  Program Director, written testimony............................   188

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  HEARING ON AVIATION CONSUMER ISSUES

                              ----------                              


                        Friday, April 20, 2007,

                  House of Representatives,
   Committee on Transportation, and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2167, Rayburn House Office Building, the Honorable Jerry F. 
Costello [chair of the committee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all members, staff and everyone to turn 
off electronic devices or to put them on vibrate.
    The Subcommittee meeting today is to hear testimony on the 
aviation consumer issues. I want to inform everyone that I have 
been informed that around 10:30 to 10:45 we will have a series 
of votes, probably as many as seven or eight votes, up to an 
hour. So I will give my opening statement, call on the Ranking 
Member of the full Committee and the Subcommittee to make 
remarks, then we will go directly to our colleagues, who will 
make up the first panel.
    I would like to welcome everyone here today to our 
Subcommittee hearing on Aviation Consumer Issues. This hearing 
is timely given the recent string of delayed and canceled 
flights, resulting in lengthy tarmac delays and again, 
highlighting customer service issues. Voluntary efforts by the 
industry to improve airline service have come under strong 
criticism, and I believe closer oversight of the aviation 
industry is needed.
    While I question a one size fits all legislative approach 
to regulating consumer issues, changes must be made and they 
must be made now. As I have said before, if the industry does 
not take action to address these issues, then Congress will.
    For anyone to gloss over the problems by saying that these 
instances are few and far between, or outside the norm, is 
missing the point. To force anyone to be stranded on a tarmac 
for eight, nine, ten or more hours just one time is 
unacceptable.
    This hearing is the first in a series of hearings that this 
Subcommittee will hold to review aviation consumer issues. If 
anyone in the industry thinks that if we can get by this 
hearing that we will go back to business as usual, they are 
wrong. We are not going back to business as usual, and if the 
industry does not take action, we will.
    A 2006 audit by the Department of Transportation's 
Inspector General office found that only five of the airlines 
that had signed onto the voluntary 1999 Customer Service 
Commitment had internal quality assurance and performance 
measurement systems in place to meet their promises, including 
addressing passengers' essential needs during delays. I find it 
very hard to believe that this is progress, as some have 
claimed.
    Further, I am disappointed that the progress was not made 
on implementing well-defined contingency plans. This is not a 
new issue. Airlines were aware of the need for contingency 
plans to deal with extreme weather back in 1999. However, the 
DOT Inspector General notes that only a few airlines' 
contingency plans specify in any detail the efforts that will 
be made to get passengers off the aircraft when delayed for 
extended periods, either before departure or after arrival. 
With long onboard delays on the rise from 2005 to 2006, this 
must be a priority for the airlines and the industry.
    I was pleased that in response to the December 2006 
American Airlines incident and the February 2007 JetBlue 
incident, the Department of Transportation requested that the 
DOT Inspector General review those incidents, as well as the 
airlines' 1999 voluntary commitments, so it can consider what 
action can be taken and should be taken by the Department of 
Transportation. I am interested in hearing from the DOT and the 
Inspector General on the progress of this report.
    I was also pleased that after JetBlue's February debacle 
they took immediate action by creating a customer bill of 
rights and incorporating those rights into a contract of 
carriage. Passengers make an investment when purchasing a 
ticket. They expect to get to their destination safely and on 
time. There is a cascade effect that a delay or a cancellation 
has on passengers and their plans.
    Like most members of this Subcommittee and of this 
Congress, I travel frequently. I see first-hand the 
frustrations and customer service issues passengers encounter 
each and every day from being trapped on the tarmac for hours 
to lost luggage to being stranded at a location not of one's 
choosing or simply a lack of information regarding reasons for 
delays and cancellations.
    Many times the airlines' answer to a problem is to give 
passengers an 800 number and simply send them on their way and 
wish them good luck. This is simply unacceptable. Communication 
is the key to improving any customer service system. The 
airlines must make customer service a priority. They must make 
every effort to inform passengers of delays and the cause, 
provide for passengers' essential needs when delays or 
cancellations occur, and ensure that passengers are informed of 
airline policies and the customer's rights before they fly.
    Greater transparency by the airlines also is important. 
Airlines must put policies in place and inform their passengers 
of these policies. It should not be a guessing game or left up 
to the passenger to try and sort it out.
    With that, I again want to make it clear to everyone that 
this is the first in a series of hearings on this issue. This 
Subcommittee intends to closely monitor the actions taken by 
the airlines and we will hold additional hearings to check on 
their progress.
    Before I recognize the Ranking Member of the full Committee 
for his opening statement or comments, I would ask unanimous 
consent to allow two weeks for all members to revise and extend 
their remarks and to permit the submission of additional 
statements and materials by members and witnesses.
    Without objection, so ordered.
    With that, the Chair recognizes the Ranking Member of the 
full Committee, Mr. Mica, for his opening statement or remarks.
    Mr. Mica. Thank you, Mr. Costello. I want to thank you as 
the Chair of the Subcommittee, and also Mr. Petri, our Ranking 
Member, for taking this difficult issue head-on. I think it is 
an important issue. We will have members testifying in a few 
moments, and then hear from leaders in industry and Government 
as to how we can do a better job in guaranteeing the safety and 
the passage of people through our aviation system, particularly 
in difficult times.
    I would like to point out just a couple of things, though. 
If we look at the situation we face, most long airline delays 
are due and related specifically to weather, severe weather. 
For the most part, these situations are extremely rare. Valid 
statistics and facts will point that out, any analysis will 
point that out.
    Long taxi-out delays, such as occurred with American 
Airlines in December and JetBlue in February, are also very 
rare instances.
    However, the nature of the industry has changed. Part of 
what has happened is, with the advent of discount airlines, 
what has occurred is the discount airlines are doing a faster 
turnaround of their aircraft. And to compete, all airlines are 
now doing this. And if you look at the situation that emanates 
from this, in a severe weather situation, we may have planes 
coming in, passengers being unloaded, another plane coming in 
quickly, that plane going out, not able to take off.
    So what we have created with this rapid turnaround is 
having planes with no place to go. They can't take off, they 
can't come back to the gate. Which is an interesting 
phenomenon, most people don't look at what has happened in the 
industry. But that is part of what happened in these two 
instances that we look at.
    Now, while some airlines have already begun to establish 
some self-imposed policies to better accommodate passengers 
affected by delays, caused by extreme weather, I think we have 
to do a better job in having a policy, a uniform policy, to 
deal with health and life safety situations. Passenger safety 
and life safety is a shared responsibility between airlines, 
airports and the Government.
    But let's face it, folks, the Government cannot guarantee 
customer satisfaction. That is one of the things that we cannot 
do. We have all seen the bad press that the airlines have 
received, and some of them have made, as I said, voluntary 
changes. However, where safety and health hazards are exposed 
upon passengers, airports and airlines should have in place 
contingency plans. We should have a uniform requirement for 
that, to remove passengers from those hazardous situations.
    In that regard, I have sent today, actually should receive 
it today, we sent it out last night, to Secretary Peters a 
request and asked respectfully that the Federal Aviation 
Administration, and a copy to Marion Blakey, develop a uniform 
policy to determine acceptable procedures for extraordinary 
flight delays, particularly when health and life safety of 
passengers may be at risk. So it is hard for us to legislate 
that, but I think we have a responsibility for the Department 
and FAA to do that.
    So each airline and each airport would be given the 
flexibility to develop its own plan, due to varying 
environments and situations and configurations at the many 
airports and airline hubs that we have across the Nation.
    At the end of the day, these events painfully demonstrate 
that our ever more critical need to modernize our Nation's air 
traffic control system, we also are better able to deal with 
these types of delays, which will in fact become more frequent 
this summer, and in continuing months again when we get into 
severe winter weather because of our system's congestion and 
inability to have the technology available to deal with this.
    I thank you for the opportunity to participate. I am right 
on time.
    [Information follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Costello. I thank the Chairman for his comments.
    The Chair recognizes the Ranking Member of the 
Subcommittee, Mr. Petri. We will follow and enforce the five 
minute rule because of the time constraints that we are facing. 
Mr. Petri?
    Mr. Petri. Thank you very much.
    I would ask unanimous consent that a statement from Mr. 
Mica be placed into the record.
    Mr. Costello. Without objection, so ordered.
    Mr. Petri. I am happy to welcome all the witnesses here 
today, along with our Chairman. Recent high profile incidents 
in New York and Dallas have brought a lot of attention to long 
flight delays on the tarmac. While these instances are rare, 
they raise important concerns of how the industry and the FAA 
can safely and efficiently operate our national air space 
system.
    First responsibility to the passenger from both Government 
and industry obviously is the safety of the traveling public 
and that passenger. In Dallas, a freak lightning storm that 
stalled over the Dallas Fort Worth Airport prevented American 
Airlines from safely getting its passengers to their 
destination. In New York, unanticipated ice storm conditions 
prevented JetBlue aircraft from safely launching flights and in 
some cases, even froze the wheels of the aircraft to the 
tarmac. In both cases, weather was the major cause of delays.
    Because most of the causes of long delays, such as weather, 
are out of human control, it is important to consider the steps 
that the industry has and can take to mitigate the effect of 
delays on their customers. I look forward to hearing what 
policy changes the airline industry, both JetBlue Airlines 
individually and the Air Transport Association collectively, 
has taken to better respond to weather delays. Over the last 
eight years or so, the Department of Transportation's Office of 
Inspector General has been active in investigating and 
evaluating major delay events. Over the years, the industry has 
voluntarily adopted recommendations made by the Inspector 
General, much to the benefit of the traveling public.
    Shortly after this February's ice storm incident in New 
York, Secretary Peters asked the Office of Inspector General to 
review and evaluate the most recent major delays and report its 
findings. I look forward to hearing from the Inspector General 
and particularly learning about any recommendations he may have 
for the industry.
    At the end of the day, major delay events painfully 
demonstrate the ever more critical need to modernize the 
Nation's air traffic control system. In some sense, long tarmac 
delays are really just the tip of the iceberg. With the 
anticipated growth in operations over the next 10 to 15 years, 
these types of delays will not be limited to days when there is 
severe weather. They might become the norm, rather than an 
anomaly.
    Therefore, I believe Congress must focus its attention on 
ensuring the transformation of the air traffic control system 
during consideration of the FAA reauthorization.
    I thank all of our witnesses, particularly our colleagues, 
for appearing before the Subcommittee today to share your 
concerns and points of view. With that, I yield back the 
balance of my time.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for this 
important and timely hearing.
    I actually introduced my first passenger bill of rights in 
1987 with then-Representative, now Senator Cardin. We are still 
falling far short of the mark. A number of times Congress has 
been deterred from imposing a basic floor for customer 
protections. I would hope that we won't be again.
    Some would point to the DOT numbers and say, well, look, 
there is only a few thousand complaints. Who knows that the DOT 
takes complaints? Nobody. I established that office. But 
unfortunately, I couldn't get the other provision, which is a 
mandatory printing of a 1-800 number, or these days, a web site 
reference on everybody's ticket or boarding pass and posted at 
the airport. Nobody knows DOT is there. They don't know they 
can take complaints there. Most people don't even know what it 
is.
    So that would be the most minimal thing we could do, is get 
a real measure of how big these problems are, by providing that 
access to our citizenry. Certainly security and safety come 
first. But we cannot ignore consumer protection. I am pleased 
we are having this hearing and look forward to the actions the 
Committee is going to take.
    Mr. Costello. The Chair thanks the gentleman from Oregon. 
Let us go to our first panel of witnesses. We have three 
colleagues that I will recognize in order. The gentleman from 
New York's Sixth District, Congressman Gregory Meeks; next will 
be Congressman Mike Thompson from the First District of 
California; and last will be Congresswoman Jean Schmidt from 
the Second District of Ohio.
    Congressman Meeks, welcome. We welcome all of you here 
today. We look forward to hearing your testimony and the Chair 
recognizes you at this time.

 TESTIMONY OF THE HONORABLE GREGORY W. MEEKS, A REPRESENTATIVE 
 IN THE UNITED STATES CONGRESS FROM THE STATE OF NEW YORK; THE 
HONORABLE MIKE THOMPSON, A REPRESENTATIVE IN THE UNITED STATES 
   CONGRESS FROM THE STATE OF CALIFORNIA; THE HONORABLE JEAN 
 SCHMIDT, A REPRESENTATIVE IN THE UNITED STATES CONGRESS FROM 
                       THE STATE OF OHIO

    Mr. Meeks. Thank you, Mr. Chairman and Ranking Member Petri 
and all members of this Subcommittee.
    Thank you for giving me the opportunity to add my voice to 
this debate.
    Throughout my tenure in the House, the members of this 
distinguished Committee and its able staff have provided me the 
opportunity of giving my opinion and hearing my voice, so that 
I can help shape public policy on aviation issues. As you have 
just indicated, as the representative from New York's John F. 
Kennedy Airport, I am grateful for the many professional 
courtesies extended to me by this Committee.
    Let me begin by stating that passengers should not ever be 
stranded for untold hours on an airplane. That is unacceptable. 
The Valentine's Day ice storm, which caused havoc up and down 
the eastern coast, saved its worst damage for New York, 
specifically at JFK Airport. The storm resulted in hundreds of 
canceled flights and stranded passengers. It resulted in a 
media firestorm for several days, and once again raised issues 
by this Committee and the Congress in the late 1990s.
    Could some things have been done differently during this 
unfortunate incident? Absolutely. Should some things have been 
done differently? Absolutely. The airlines can do better, and 
we expect them to do better. But we should also understand that 
there are mechanisms in place to achieve that currently.
    When the airline industry was deregulated 30 years ago, the 
Congress adopted a policy to put market forces in place to 
address commercial air transportation issues. The airline 
industry is one of the most competitive of any industry today, 
with the legacy passenger carriers directly competing against 
each other and against new entrants. As a result, the public 
has benefitted. Today, consumers have more choices among 
airlines, more destinations, lower fares, innovative amenities 
and better service.
    The proof of that continues to be the record amounts of 
individuals who travel each year, now going over one billion. 
Today, U.S. airlines conduct approximately 14 million takeoffs 
and landings a year. As indicated earlier, according to the 
U.S. Department of Transportation Bureau of Statistics in 2006, 
there were 36 flights out of the more than 7.1 million that 
were delayed five hours or more after pulling away from the 
gate. While this ratio is statistically insignificant, the 
frustration felt by those affected is very real.
    The question is, what leads to these unusual delays? There 
is a combination of multiple factors that contribute to this 
problem. Most often, these factors include severe weather and 
air traffic control directives. I personally experience some of 
this every week going back and forth, traveling through JFK and 
LaGuardia, we have delays that are related to airport and 
airspace capacity challenges.
    These factors are beyond the control of the individual 
airlines. It is driven more by the fact of our national 
airspace ATC system is built on outdated technology that was 
deployed in the 1950s. Until a new, satellite-based ATC 
navigation system is employed, passengers will continue to 
experience longer and longer delays. If the ATC system is not 
modernized, the delays will continue to mount.
    While the delays passengers experience were serious and 
regrettable, we also must let market forces work so that it can 
begin to address some of the concerns and issues that we have. 
In a competitive environment, as is the airline industry, 
carriers cannot afford to lose customers to competitors, 
especially when profitability is often determined by those 
paying passengers as well as the ever-rising, increasing cost 
of fuel.
    Furthermore, the airline industry is very capital-
intensive. Much of the investments that they make improve the 
traveling experience of its passengers. For example, when an 
airline builds a new terminal or upgrades its facilities at an 
airport, the passengers benefit. When a consumer can fly free 
because of purchases made through a credit card, that is a 
benefit. Today passengers can check online 24 hours in advance 
to avoid lines at the airport, that is a benefit. And of 
course, there are many others.
    Like other deregulated industries, such as 
telecommunications and financial services, airline passengers 
and the general public have reaped many benefits from 
deregulation. Competition is alive and well and market forces 
are working. As a result, the focus of this Committee, I 
believe, should rightly be on how airlines prepare for, 
accommodate and respond to passenger needs when delays caused 
by unusual conditions are encountered.
    I am here, Mr. Chair, because JFK Airport is the economic 
heartbeat of my district. My concern is that this situation is 
more complex and legislation is not necessarily the answer. All 
options, all options need to be evaluated carefully so we avoid 
unintended consequences that will handcuff an industry that is 
already on life support. Rushing to legislate can potentially 
jeopardize the livelihood of thousands of my constituents who 
earn their living and access to the American dream based on the 
survival of this industry.
    I will stop there, I have something else, but I know we are 
getting onto the FAA reauthorization. I have some comments 
about that also, because it affects my airport and others in 
New York, very definitely. But that is in the record, and thank 
you, Mr. Chairman, for the opportunity to testify.
    Mr. Costello. The Chair thanks the gentleman for his 
thoughtful testimony.
    Let me announce that there is a vote that is occurring 
right now. We have exactly 11 minutes left on the vote. There 
are nine votes, so it will be at least an hour, probably an 
hour. But we will return immediately after the last vote, which 
we anticipate will be in about an hour.
    But we would like to get Mr. Thompson and Congresswoman 
Schmidt, if you could summarize your testimony, we would like 
to accept it now, if you would. Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, Ranking Member Petri 
and members of the Committee, for holding this important 
hearing.
    I also want to acknowledge and thank Ms. Kate Hanni, who is 
here today. You will hear from her later. She is a constituent 
of mine. She has really led the effort to improve customer 
service by the airlines.
    Mr. Chairman and members, she was on the flight on December 
29th from San Francisco to Dallas that was diverted to Austin. 
After flying to Austin, or whatever, that takes a couple of 
hours, two and a half hours, she then sat with everyone else on 
that plane for nine hours on the tarmac. As numerous people 
have stated today, that is just absolutely unacceptable.
    Passengers on that flight experienced toilets that didn't 
work. They didn't have appropriate food. They didn't have safe 
drinking water. There were pets on board that were making a 
mess, causing other problems. And parents even had to resort to 
making makeshift diapers for their babies out of adult 
clothing. I think we know that that is unacceptable.
    On the same day, Little Rock, Arkansas, folks sat on the 
tarmac four or five hours. There are a number of examples of 
this. It is not the limited instances that have been referenced 
today.
    As you know, and I think Mr. DeFazio mentioned, the 
industry in the past has said that they were going to take 
voluntary action to fix this problem. And as we also know, when 
the Wendell H. Ford Aviation Investment Reform Act for the 21st 
Century was passed, that mandated the Department of 
Transportation Office of Inspector General analyze the progress 
made by the airlines under their voluntary actions. As we also 
know, that analysis by the Inspector General suggests that also 
some progress was made, there is still a long way to go.
    February this year, the Orlando Sentinel editorialized, and 
I think they said it best, they said, leaving it to the 
airlines to provide customers with better standard of service 
has not worked. That is wy I applaud your effort, and I think 
it is time that we step up efforts here in Congress to improve 
things.
    The bill that I have introduced gives passengers the right 
to deplane after three hours, with two exceptions: if the pilot 
determines it is unsafe to do so, obviously that wouldn't 
happen; and if the pilot determines within a reasonable amount 
of time, 30 minutes, that they can take off, we allow for two 
extensions of that. It also requires that passengers have food, 
clean water and that the toilets work.
    It also calls the FAA, the Department of Transportation, in 
on this. It has been referenced today. There are problems. We 
need to figure out how to work through some of those problems. 
Infrastructure problems, no question. The regulatory morasses 
that is out there, if a plane leaves the queue to let somebody 
off, they can't get back in, those are all things that we need 
to do.
    But I believe it is time that we do this, and I look 
forward to working with you, Mr. Chairman, Mr. Petri and other 
members of the Committee, to make sure that passengers have the 
ability to know what they can expect out of their airlines, 
without putting the airlines into some sort of terrible box, as 
Mr. Meeks has mentioned today.
    Thank you, and I would like to submit my entire testimony 
for the record.
    Mr. Costello. We will accept your testimony, and let me 
thank you for your thoughtful testimony.
    Let me ask you, Congresswoman Schmidt, can you summarize 
your testimony in four minutes?
    Mrs. Schmidt. Absolutely.
    Thank you, Mr. Chairman, and I thank the panel. I would 
venture to guess that all of us at one time or another have 
been on the tarmac for a certain period of time. Given the 
amount of time that we in Congress spend on planes, we have 
spent some time in a delay.
    The recent incidents, some of which are deeply troubling, 
have brought light on an issue, and I believe can create some 
positive results. I decided to launch my own research project 
on this issue to find out what was happening and why. Based on 
data provided to me by the Bureau of Transportation Statistics, 
I randomly chose delays from last year and asked each airline 
to explain the cause of each delay. While I am still compiling 
the results, this morning I do have some preliminary findings.
    All of this data is for calendar year 2006. In 2006, 
commercial air traffic system handled over 7.1 million flights, 
carrying some 740 million passengers. That amounts to 19,000 
flights averaged per day. During 2006, there were 1,295 flights 
that the BTS reported were delayed on the tarmac for more than 
three hours. That is 2/100ths of a percent of all flights.
    So if you were like me and found yourself on one of those 
flights, congratulations, you really beat the odds. But the 
data is quite revealing.
    However, one data set that is not collected by the BTS that 
needs to be is diverted flights. These flights, like the now 
infamous American Airlines flight, do not fall into the 
category collected by the BTS. As this Committee puts together 
an FAA reauthorization bill, I hope that it will include 
language directing the BTS to compile statistics on diverted 
flights. This information should give us a clearer picture of 
the situation.
    Of these 1,295 flights, I randomly chose 100 of them in a 
sample with all the major carriers. Most of those carries have 
responded with their explanations. While I am still compiling 
the data, some patterns are quickly emerging. The vast majority 
of these delays are caused by weather officially. As a frequent 
flyer, I am extremely grateful we are not flying in bad 
weather.
    But the underlying cause, more than the weather, appears to 
be a horribly inadequate air traffic control system that simply 
must be modernized. Mechanical delays, what I will term as 
regulatory delays, are also a factor in a much smaller scale. 
An even smaller factor, but more frustrating, is human error. 
That would include the just dumb mistakes like grounds drops 
with planes a few feet from the gate, or managers that simply 
forgot to call to appeal to the tower.
    While modernization would not have eliminated all 1,295 of 
those delays, it appears to me that a vast majority of them 
would have either been reduced dramatically in duration or 
totally eliminated. While my research project does not deal 
with the frustration passengers have experience, I strongly 
feel that the best course for our Committee is to try to 
eliminate the root causes of these delays, which I believe is 
outdated technology.
    Once I have completed my report, I look forward to sharing 
it with every member of this Committee. Truly, I believe 
together we can make great strides in eliminating these very 
uncomfortable delays. Thank you again for this opportunity. I 
look forward to continuing to work with you on this important 
issue.
    Mr. Costello. The Chair thanks you for your testimony, and 
you came in under four minutes. So we appreciate that as well.
    The Subcommittee will stand in recess until after the last 
vote. As I said, we anticipate that we will have at least an 
hour that we will be on the Floor. So after the last vote, the 
Subcommittee will come back and hear our second panel.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order.
    We will now hear from our first panel after we heard from 
the three members of Congress. The next panel is the Honorable 
Calvin Scovel, Inspector General of the U.S. Department of 
Transportation; the Honorable Andrew Steinberg, the Assistant 
Secretary for Aviation and International Affairs, with the U.S. 
Department of Transportation. And I understand that he in fact 
is accompanied by Dan Smiley, Operations Manager of the FAA 
Command Center.
    With that, the Chair recognizes Mr. Scovel to summarize his 
testimony under the five minute rule.

  TESTIMONY OF THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR 
   GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; THE HONORABLE 
   ANDREW B. STEINBERG, ASSISTANT SECRETARY FOR AVIATION AND 
   INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF TRANSPORTATION, 
  ACCOMPANIED BY: DAN SMILEY, OPERATIONS MANAGER, FAA COMMAND 
                             CENTER

    Mr. Scovel. Thank you, Chairman Costello, Ranking Member 
Petri and Members of the Subcommittee. I appreciate the 
opportunity to testify this afternoon. This hearing is both 
timely and important, given the recent events this past winter 
involving extended ground delays with passengers stranded 
aboard aircraft for extended periods, some for 9 hours or 
longer.
    Secretary Peters has serious concerns about this issue and 
has asked my office to review the airlines' customer service 
commitments and policies for dealing with extended ground 
delays and their contingency plans for such events.
    As this Subcommittee is aware, airline customer service 
took center stage in January 1999 when a similar situation 
occurred with hundreds of passengers trapped onboard planes on 
snowbound runways in Detroit. At that time, following 
congressional hearings, member airlines of the Air Transport 
Association, ATA, agreed to execute a voluntary airline 
customer service commitment to demonstrate their dedication to 
improving air travel.
    In February 2001, we reported that the ATA member airlines 
were making progress toward meeting the commitment, which has 
benefited air travelers in a number of important areas. 
However, the commitment did not directly address the underlying 
cause of deep-seated customer dissatisfaction: flight delays 
and cancellations. This is still the case today.
    The debate again is over the best way to ensure improved 
airline customer service, whether it is voluntarily implemented 
by the airlines, legislated by the Congress, further regulated 
by the Department, or achieved through some combination of 
these. This is clearly a policy issue for Congress to decide.
    Today, I would like to discuss three important points 
regarding airline customer service as we see them, based on the 
results of our previous airline customer service reviews and 
our ongoing work. First, the airlines must refocus their 
efforts to improve customer service. In November of 2006, we 
reported that ATA member airlines' customer service plans were 
still in place to carry out the provisions of the commitment, 
including meeting passengers' essential needs during long, on-
board delays.
    However, we found several areas where airlines need to 
refocus their efforts to improve customer service. The airlines 
need to resume self-audits of their customer service plans. A 
quality assurance and performance measurement system and these 
audits are necessary to ensure the success of the commitment 
and the customer service plans. In our 2006 review, however, we 
found that just five of the ATA airlines had quality assurance 
systems and performed self-audits.
    The airlines must also emphasize to their customer service 
employees the importance of providing timely and adequate 
flight information to passengers. Further, the airlines must 
disclose chronically delayed flights to customers. We 
recommended in our 2001 report that airlines disclose to their 
passengers, at the time of booking and without request, the on-
time performance for those flights that are consistently 
delayed. To date, none of the airlines have adopted this 
recommendation.
    Second, the Department should take a more active role in 
airline customer service issues. DOT is responsible for 
oversight and enforcement of air traveler consumer protection 
requirements. However, when DOT discovered violations and 
assessed penalties, it almost always forgave or offset the 
penalties if airlines agreed to mitigate the condition for 
which the penalties were assessed.
    DOT's follow-up monitoring of compliance was limited. In 
some cases, there was no follow-up monitoring at all. Also, 
instead of on-site compliance reviews, the Department has 
primarily relied on air carriers' self-certifications.
    Third, the airlines must overcome challenges in mitigating 
extraordinary flight disruptions. In 2006, approximately 10 
percent of all commercial flights were delayed due to poor 
weather conditions. While it is too early to tell what this 
summer will hold, the picture in 2007 so far shows that the 
number of delays and cancellations is increasing and the length 
of delays is longer.
    As I mentioned earlier, meeting passengers' essential needs 
during long, on-board delays is a serious concern of Secretary 
Peters. She asked my office to examine the airlines' customer 
service plans for dealing with these events, especially the 
recent events at American Airlines and JetBlue Airways, and 
provide recommendations as to what can be done to prevent a 
recurrence.
    We are in the early stages of this review and plan to brief 
the Secretary in June and issue our report and recommendations 
shortly thereafter. However, our work thus far has shown that 
there are a number of actions that airlines, airports, the 
Department, and FAA can undertake immediately, without 
congressional action, to improve airline customer service.
    One: airlines should implement quality assurance and 
performance measurement systems and conduct internal audits of 
their compliance with the provisions. Two: the Department 
should revisit its current position on chronic delays and 
cancellations and take enforcement actions air carriers that 
consistently advertise unrealistic flight schedules, regardless 
of the reason.
    Mr. Chairman, I see that I am at my time. If I can have one 
more minute, please, I can finish up. Thank you.
    Three: the airlines, airports, and FAA should establish a 
task force to coordinate and develop contingency plans to deal 
with lengthy delays, such as working with carriers and airports 
to share facilities and make gates available in an emergency.
    Finally, the Department_in collaboration with FAA, 
airlines, and airports_should review incidents involving long, 
on-board ground delays and their causes; identify trends and 
patterns of such events; and implement workable solutions for 
mitigating extraordinary flight disruptions.
    Mr. Chairman, this concludes my statement. I would be glad 
to answer any questions that you or other Members of the 
Subcommittee might have.
    Mr. Costello. Thank you. The Chair recognizes Mr. 
Steinberg.
    Mr. Steinberg. Thank you.
    Mr. Chairman, thank you for inviting me to testify today on 
behalf of DOT. I will try and keep this brief, just hitting the 
main points of my written statement, which I would ask to be 
made part of the record.
    Since deregulation of the airline industry almost 30 years 
ago, the Government has tried to balance the interest in 
protecting consumers against unreasonable business practices 
against the basic mandate of deregulation, which is to let the 
marketplace decide customer service issues. We continue to 
think that this is the right approach, but we also recognize 
that sometimes a regulatory action is necessary. Of course, our 
broad regulations over safety are such an example.
    When the marketplace doesn't work, we do have tools at our 
disposal to address deficiencies. The cornerstone of our 
consumer protection program is our very broad authority to 
prohibit unfair and deceptive practices, as well as unfair 
methods of competition in air transportation. You should know 
that the Department's Office of General Counsel is the 
Department that brings aviation consumer action cases under the 
statute. And that office handles all consumer complaints and 
inquiries and publishes a monthly air travel consumer report, 
which summarizes airline data on the kinds of complaints we 
get, delays, mishandled bags, denied boardings and so on.
    Between 2000 and 2006, complaints with DOT actually fell by 
nearly two-thirds. But we are beginning to see complaints 
increase again. Most focus on airline performance problems, 
including delays. We have already heard testimony today about 
the most highly publicized incidents, involving JetBlue and 
American Airlines this year and last year. The fact is that, 
however, all carriers at one time or another have similar 
problems.
    The Inspector General is right, that Secretary Peters was 
troubled by the incidents that were reported, particularly, I 
would say, over the reports that food, water and other basic 
needs were not being met by the airlines. If those reports are 
true, it begins to cross the line between inconvenience and 
discomfort and health and safety issues. That is why she asked 
the Inspector General to conduct an investigation, to see 
specifically how the airlines were doing on this commitment 
that they made eight years ago to deal with on the ground 
delays, because that commitment was not covered in the prior 
Inspector General report, and to make recommendations. And as 
indicated, after that review is completed, we will decide what 
to do.
    Although these very lengthy tarmac delays are statistically 
rare, it is clear that airlines must have adequate contingency 
plans in place to deal with these situations. Stranding 
hundreds of passengers for many hours aboard aircraft is not 
acceptable. Incidents like these raise questions about the 
planning for such events.
    So we were pleased to see that following these events, both 
of the carriers involved announced corrective actions. In 
American's case, they announced that they would limit any 
tarmac delay to four hours. In JetBlue's case, of course, they 
had a very highly publicized customer bill of rights that I am 
sure you will hear more about later.
    I would say the Department prefers that airlines address 
these issues directly, rather than the Federal Government. But 
again, we recognize sometimes action may be necessary.
    We do need to keep tarmac delays in the context of a vast 
system of more than 7 million flights a year. Airline networks 
are complex operations in which the airlines are constantly 
juggling operational, mechanical, safety, human resource, 
regulatory constraints. So what I would ask the Committee to 
consider is that any new requirement be assessed in terms of, 
will it fix the problem, does it have the potential to make the 
problem actually worse by creating more delays and what is the 
public benefit from it.
    I want to just conclude by saying that we are all 
personally empathetic with people that are on planes on the 
ground for unacceptable lengths of time. We have all been 
there. And we don't just look at statistics. The question is, 
how to fix this problem when it occurs. The Secretary has 
indicated that we will wait until we get the Inspector 
General's reports and we have all the facts and all the 
information before recommending a course of action.
    Thank you.
    Mr. Costello. I thank you. And let me follow up on your 
testimony and comment that I am, while you point out, and it 
has been accurately pointed out before, both in the written 
testimony that we will receive and hear from the next panel, 
these circumstances and situations are rare. They are 
oftentimes caused by weather.
    The fact of the matter is, what we need to do is find a 
solution. I am also pleased that you acknowledge that the 
airlines need to do more.
    In that regard, let me ask Mr. Scovel a couple of very 
quick questions. You indicate in your testimony, as I did in my 
opening statement, that the airlines need to adopt policies 
that are very clear, very accessible and easy to understand by 
the flying public. You indicate that they must implement more 
effective contingency plans.
    What items should be addressed in these plans, in your 
opinion, Mr. Scovel?
    Mr. Scovel. Thank you, Mr. Chairman.
    Sir, I would start with defining the extended period of 
time, which relates back, in fact, to the June 1999 customer 
service commitment that all member airlines of ATA at that time 
joined. At that time, that term was not defined. When we 
pointed it out in our 2001 report, the airlines at that point 
agreed that it would be a priority for them and that they would 
undertake steps to make that definition. To date, however, 5 of 
13 airlines do not specify in their customer service plans what 
is meant by an ``extended period of time'' with regard to 
meeting passengers' essential needs.
    Now, that term would also apply to situations where 
passengers should be deplaned after an extended tarmac delay. 
We have found that seven of the ATA member airlines do not 
define the term for the purposes of setting a time limit for 
deplaning passengers. The range for those airlines that do is 1 
to 5 hours.
    That would certainly be a tremendous starting point. A 
uniform definition for time limits for both of those, we 
believe, would go miles toward reassuring the public that the 
airlines take their commitment to customer service seriously.
    Mr. Costello. You also in your written testimony state that 
you acknowledge that JetBlue and American Airlines responded 
after their incidents, but you indicate that ATA has shortly 
after the JetBlue and American Airlines incidents announced 
several initiatives and requested that the Department of 
Transportation convene a task force among other things. You 
indicate that you have a concern that ATA's action merely 
shifts responsibility from ATA to the Department. I wonder if 
you might elaborate on that.
    Mr. Scovel. Yes. We believe that it would shift 
responsibility from the airlines to the Department. We believe 
the airlines have a continuing responsibility, for instance, to 
execute their contingency planning, to define the terms that we 
have outlined, to take steps to provide for passengers' 
essential needs, and to make plans to deplane passengers when 
appropriate.
    The airlines and the airports should be continually taking 
those steps on their own, rather than relying on the 
Department's review or judgment. At some point, the 
Department's involvement will be necessary. In fact, one of our 
recommendations for immediate action, even without any 
congressional intervention, should the Congress decide to go 
that route, is for the Department to convene a meeting of the 
airlines in order to review all of that.
    But, in the meantime, we believe that this is a continuous 
process for the airlines, if they are to make any headway in 
this area.
    Mr. Costello. So instead of attempting to shift 
responsibility to the Department, they should assume 
responsibility and be proactive in an attempt to address these 
issues internally?
    Mr. Scovel. Absolutely, sir. And if I may, I want to be 
clear on part of my earlier statement, when I was talking about 
defining an extended period of delay specifically with respect 
to deplaning passengers. We consider that a one size fits all 
policy, which is, we would caution the Congress about going 
down that route, should the Congress decide that legislation is 
necessary.
    We think, on the other hand, that a uniform definition of a 
time period for provision of passengers' essential needs may 
certainly be helpful to the customer. However, we realize there 
are many more moving parts when it comes to deplaning 
passengers, including safety for passengers, the layout of the 
airport, whether it is physically possible, and if it were to 
become desirable, if FAA were to reexamine its departure 
sequence rule so that the desires of passengers who may want to 
continue on a flight that may be promised a departure window at 
some point, as opposed to those passengers who are simply fed 
up and want to get off.
    Mr. Costello. I think I made clear in my opening statement, 
my concern about a one size fits all legislative approach, 
however, the airlines have had the opportunity to address this 
issue and in fact committed to doing so back in 1999. And 
obviously some have been a little more proactive than others, 
as you indicate in your testimony. But you know, the bottom 
line is that either they are going to address the problem or we 
are.
    And number two, let me say that it is easy to just blame 
the airlines. They made a commitment in 1999, and it was our 
responsibility in this Congress to provide aggressive oversight 
to make certain that they in fact were complying with their 
commitments. That is one of the reasons why I made very clear 
early in this hearing that this is the first in a series of 
hearings. We are not just going to close the book on this at 
the end of the day. We are going to hold additional hearings 
and we are going to provide aggressive oversight on this issue.
    So they will either comply and address the issue on their 
own or we will certainly be back in this room examining what 
action or the lack of action they have taken.
    With that, let me recognize the Ranking Member if he has 
questions at this time.
    Mr. Diaz-Balart. I will be brief, Mr. Chairman, thank you 
very much.
    Just a couple of questions, gentlemen. What are some of the 
logistical and operational challenges as well as safety-related 
kind of regulatory barriers that currently would prevent, if 
nay, airlines from simply returning to the gate and offloading 
passengers who don't wish to continue? Has the Office of 
Inspector General considered how to overcome some of those 
challenges, if they do exist, and what are they? Does the DOT 
have the authority, if it needs to address these challenges 
right now?
    Mr. Scovel. Thank you, sir. We have not undertaken a 
detailed study of that. We believe that is properly within the 
purview of FAA. As you may know, sir, the FAA has operated for 
many years under a first come, first served rule when it comes 
to the departure sequence. However, when we come up against 
situations involving extended on-ground delays caused by 
weather and a long queue of aircraft awaiting departure; when 
an aircraft may need to return for either de-icing, as happened 
in February at JFK with JetBlue, or perhaps even to return to a 
gate to deplane passengers, the standing rule has been that the 
plane must go to the end of the queue.
    There are some exceptions. Airlines have what they call 
``advocates'' in the air traffic control tower who may be able 
to negotiate, on a one-time basis, a return to a higher place 
in the queue. But generally, it is back to the end of the line.
    As far as regulatory barriers, certainly FAA possesses the 
ability, we think, to change that. What we identify as 
problems, mainly, are the physical layout of airports 
themselves. Some airports by virtue of their location and their 
design and their more modern age may be able to safely 
accommodate aircraft moving about in such a fashion. Other 
airports, because they are much more crowded and narrow, may 
not be able to have aircraft move about in that fashion and 
guarantee passenger safety.
    I think you mentioned deplaning passengers, and one method 
for that, of course, and that happened in some locations in the 
December incident involving American Airlines, was buses moving 
to the location of the aircraft and taking passengers off in 
that way. That, of course, would be highly safety-dependent, 
depending on whether the passengers' own conditions and so 
forth, and the ability of ground personnel to move about safely 
under all those conditions.
    But, that would require some detailed study. We have not 
spoken in detail with FAA about it. But to the extent this 
Congress or the airlines would anticipate undertaking a more 
precise definition of an extended period of time for the 
purposes of deplaning passengers, a key element of that, we 
think, would be re-examining FAA's departure sequence rules, so 
that passengers who may want to remain aboard aircraft, as I 
mentioned, and try to make a departure window, will have that 
option, while other passengers who are fed up can get off the 
gate or exit the aircraft and get on a bus.
    Mr. Diaz-Balart. Am I hearing, though, that in your 
opinion, there would be a problem with a one size fits all kind 
of approach to consumer issues, including these issues? Am I 
reading you correctly, or am I just making that up entirely?
    Mr. Scovel. We see problems with a one size fits all 
approach, specifically when it comes to deplaning passengers. 
Frankly, in other areas, we think a more uniform policy across 
the airlines would be helpful to the customers. So, I don't 
think I can at this point say, one size fits all is not a good 
approach across the spectrum of customer service concerns.
    Mr. Diaz-Balart. Let me ask you, and I don't know who 
should answer this, are there right now requirements, either in 
contracts, of either carriers or in regulation, that direct 
airlines and airports to have contingency plans, clear 
contingency plans for accommodating, for protecting the health 
and safety of the travelers? For example, should there be an 
extreme event, whether it is weather-related or otherwise, are 
there clear contingencies, or is it through contracting? Is it 
through regulation? Who can answer that?
    Mr. Scovel. Let me defer to Mr. Steinberg.
    Mr. Steinberg. As a result of the customer commitments that 
were given in 1999, I believe that most of the airlines have 
looked at the issue of contingency planning and have 
incorporated some language on it in their contracts. Whether 
that language is adequate or not and whether the commitments 
are explicit enough is another matter. I suspect that is 
something that the Inspector General will look at as he 
determines whether they have met the commitments that they 
made.
    There are no regulations per se that really cover the 
situation, except that to say that of course the FAA has many 
regulations dealing with passenger safety, including when 
passengers are on the ground. But none to my knowledge that 
cover food, water and those kinds of things.
    Mr. Diaz-Balart. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Mr. Costello. The Chair thanks the gentleman.
    The gentleman from Oregon, Mr. DeFazio is recognized.
    Mr. DeFazio. I thank the Chairman.
    To Mr. Scovel, don't you think that, and we talk about one 
size fits all and the disadvantages of Federal mandates, but 
wouldn't it be prudent to set a floor? What I observe in the 
industry is that you have some very responsible carriers, and 
then you have others who have adopted the old Ma Bell model, 
which is, we don't care, we don't have to. There is not one 
size fits all in the industry.
    If you set a floor for customer protections across a broad 
range of issues, then even the worst actors have to meet it. 
And if the best ones, for competitive reasons or just because 
they are good folks, want to exceed it, that is great. But 
absent that floor, I don't know how we are going to get and 
assure the kinds of protections and deal with the abuses we are 
talking about here.
    Mr. Scovel. Mr. DeFazio, I think I was speaking 
specifically in terms of deplaning passengers when I was 
expressing some reluctance to endorse a one size fits all 
policy. However, I did say too that with regard to other 
issues, specifically, provision of passengers' essential 
concerns, a consistent policy across the industry would 
certainly be helpful to customers. Whether you would term that 
a floor, and hopefully the good citizens in the industry would 
want to exceed that in providing for their customers. We would 
certainly endorse that.
    Mr. DeFazio. I don't know if you were here earlier. But 
when I got the Office of Consumer Complaints established in a 
prior FAA authorization, unfortunately due to objections by the 
industry and concerns by that Administration about having to 
staff the office, in case too many people had complaints, we 
ended up with a secret office of complaint. And they don't get 
a lot of calls.
    Don't you think if we are going to have such an office, to 
get a meaningful measure it would be useful to have it made 
known? Do you think it would be overly burdensome if we 
required, when you print out your boarding pass, that the 
computer program actually prints, if you have problems with 
this flight, this number is available? Or on tickets?
    Mr. Scovel. It sounds like a reasonable approach. I will 
note that the Department has on its web site a way to access 
the Office of Aviation----
    Mr. DeFazio. Right, but that means that we have a consumer 
who knows there is a Department of Transportation or an FAA and 
they sort of parse their way through it. But for a lot of 
people who aren't frequent travelers, and even for frequent 
travelers, I think it would be a useful thing. Thank you.
    The denied boarding issue, I was puzzled. I guess I wasn't 
aware of the exemption for the smaller planes. It says here, I 
think you said in your testimony, consider extending it to 
planes between 31 and 60 seats?
    Mr. Scovel. Yes. That refers to the over-booking and over-
sold provision.
    Mr. DeFazio. Right.
    Mr. Scovel. We recommended in our 2001 report that the 
airlines petition the Department to change the rules so that 
instead of starting the protection for consumers with over-
bookings that occur aboard aircraft at 60 seats, that it be 
reduced, if you will, to aircraft with 30 seats. That would 
have greatly expanded the number of carriers reached and would 
amount to the many tens of millions of passengers who would be 
potentially protected by such a rule.
    Mr. DeFazio. Sure, well, my mid-size, non-hub airport is no 
longer served by planes larger than 60 seats. This must be a 
fairly archaic rule.
    Mr. Scovel. Precisely. I don't know when the 60 seat part 
of the rule originated. But I can say that, to their credit, 
very shortly after our 2001 report was released, ATA member 
airlines endorsed it and did indeed petition the Department in 
2001.
    Mr. DeFazio. Oh, okay. So do we know what action the 
Department has taken? The petition was when, in 2001?
    Mr. Scovel. In 2001.
    Mr. DeFazio. The industry asked to be regulated in 2001. 
Okay, so where are we?
    Mr. Scovel. They did, in April 2001.
    Mr. DeFazio. Right.
    Mr. Scovel. This month, in fact, the Department's Office of 
General Counsel, I presume, began circulating an advanced 
notice of proposed rulemaking addressing the airlines' 
petition.
    Mr. DeFazio. Let's see. Six years after being asked by a 
regulated body, we are finally circulating a petition to 
advance rulemaking. That is great. Do we have someone who can 
address that issue here? Let's see. Mr. Steinberg, you are 
international affairs. I don't think either of the other 
witnesses are really accountable for that.
    Mr. Steinberg. I can address it. We are actively working on 
it now. I can't explain the number of years that it took. I 
would just note that, of course, there was September 11th and a 
lot of intervening events that affected that. It is not an 
excuse. It shouldn't take us that long.
    I can assure you that a rulemaking is imminent.
    Mr. DeFazio. Yes, because, with the changes in the 
characteristics of the industry, yes, 10 years ago, my city was 
served by planes up to 130 seats. But now with the industry 
changes, this is really essential.
    One last thing, Mr. Chairman, if I might. Again, Mr. 
Scovel, I was not aware, is this rule of back to the end of the 
line, is that custom and practice or is that at each airport, 
or is there some actually promulgated regulation or rule that 
governs all airports that says if anyone pulls out of line they 
have to go to the end of the line?
    Mr. Scovel. It is my understanding that by longstanding 
custom and practice that indeed is the practice. I cannot quote 
you chapter and verse which FAA regulation, if any, addresses 
that. Perhaps Mr. Steinberg would have that information, or I 
would be happy to get that for you for the record.
    Mr. DeFazio. I am curious if there is any statutory or 
regulatory underpinning or if it is just something that we have 
been doing and never thought about.
    Mr. Steinberg. It is something that we have thought about. 
It is part of the way that the FAA manages traffic. I might 
defer to Mr. Smiley, who is the Manager of the Command Center 
for the FAA. Perhaps he can provide more detail.
    Mr. Smiley. Yes, sir, thank you.
    I don't know of any rule that says that. However, it is 
often a logistical issue at the airports, that if you take a 
flight out of line that is in a line-up for departure, and are 
able to bring it back to the terminal, often that is a problem 
in and of itself. Then if they were to take the passengers off 
and maybe even have to take their luggage off, time goes by, 
they turn around and try and get back in the line, their space 
is gone, in essence. They get back in the back of the line and 
starting coming back out.
    Mr. DeFazio. I understand operationally and congestion. But 
what I am looking at here is the perverse incentives that we 
are establishing, if there are five planes, ten planes out 
there, I am tenth in line, and it is probably not likely we are 
going to leave, but maybe we can leave, people have been on the 
plane five hours and if I go back, that other plane is coming, 
or if I am one in a line of ten, it seems to me it should have 
some flexibility for adverse conditions and maybe it needs to 
be more than just understood custom and practice since Orville 
and Wilbur first went up, that maybe we want to, so we won't 
abuse the passengers. We want to say, gee, look, if the 
weather's bad and the pilot has had people out there for more 
than a certain period of time, he should go back and not feel 
he has to stay in line, because he might get to take off soon 
and he is going to lose his place in line, or her place in 
line. Do you think that would be reasonable?
    Mr. Steinberg. Mr. DeFazio, I just want to note for your 
benefit that the FAA does have customer advocates. It isn't 
quite as inflexible as it perhaps has been presented. When an 
airline is in a situation where they have had passengers 
onboard for several hours, that can be communicated to the 
customer advocate. Subject to the logistical constraints that 
you mentioned, they can be moved. And that happens on a daily 
basis. It is not quite inflexible.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman, and let me comment if 
I can that as I mentioned about the lack of aggressive 
oversight by this Subcommittee and the Committee concerning the 
agreement in 1999, I think when we talk about the agency to 
come out with regulations to regulate the industry, and it is 
six years later and we are still waiting, it is another reason 
why this Committee needs to provide aggressive oversight.
    The Chair recognizes the Chairman of the full Committee, 
the distinguished gentleman who is chairing the full Committee, 
Mr. Oberstar.
    Mr. Oberstar. Thank you very much for holding these 
hearings, Mr. Costello. You have moved the ball forward 
considerably on all of the subjects of aviation, as we prepare 
for the reauthorization of FAA. I compliment you and Mr. Petri 
on a very thorough in-depth review, which will continue over a 
period of weeks to come.
    The Chairman just a moment ago referred to the lack of 
oversight on this Committee on the passenger bill of rights 
issue, among many others. That lack of oversight is exceeded 
only by the failure of the Department of Transportation to 
exercise its own oversight and its own enforcement of Section 
41712 of Title 49 of the U.S. Code that deals with unfair and 
deceptive practices and unfair competition.
    The ATA testimony goes on at length about the benefits 
derived from the Deregulation Act of 1978. I sat right here in 
this Committee room and rubbed my worry beads about the effects 
of deregulation and in the end, I voted for it. There was a 
great deal of protection for small cities and essential air 
service written into the legislation, and hold-ins and all the 
rest. And with the assurance that there was going to be 
vigorous oversight by the existing Administration, the Carter 
Administration, of the passenger concerns and of the community 
concerns.
    Unfortunately, they didn't last long enough to exercise 
that oversight. The election of 1980 changed the course. And 
the protection that passengers were anticipating and expecting 
hasn't been forthcoming consistently from the airlines, despite 
the pats on the back that the ATA's testimony gives themselves. 
And we have had these meltdowns over a period of time. It is 
hard to call a snowstorm a meltdown, in which case it is only a 
figure of speech.
    I think of all the testimony, which I have read over, all 
the testimony submitted today, that of the Inspector General is 
the most compelling and the most, creates with me the greatest 
concern. When I see, Mr. Steinberg, from your testimony that 
oh, shucks, violations are difficult to demonstrate, this 
section is enforceable in its own right but violations are 
difficult to demonstrate, prosecution is ultimately successful, 
it is resource-intensive, time consuming, of limited 
precedential value, because each case is highly dependent on 
its own set of facts, baloney. If you don't exercise oversight, 
they are going to continue to do stuff that the public doesn't 
want. You are already recognizing that there is an increase in 
complaints. The reason there haven't been more complaints is 
that nothing much is done about them. That is why we have had a 
parade of our colleagues in the Congress coming here and 
saying, fix this.
    Now, the Inspector General's statement, when DOT discovered 
violation of assessed penalties and almost always forgave or 
offset a portion of the penalty, there are cases when that is 
appropriate. Why spend money on a fine if they will spend the 
same money fixing the problem? I have no problem with that.
    When it came to U.S. Air, I think it was, that did not 
approve vouchers for lodging or meals, one of the many 
complaints that DOT looked into and if they turned around and 
gave money and compensate, make up for it later, or if I think, 
I think it was Southwest that was getting a fine for not having 
wheelchair storage, and they said, we will spend the money on 
wheelchair storage, I think that makes up for the problem.
    But if these are random enforcement, the airlines don't 
take them seriously, then people get discouraged and they are 
not going to file complaints. DOT says the IG has not conducted 
on-site compliance reviews, relied on air carrier self-
certification and company-prepared reports. It has not found 
supporting documentation. Chronically delayed and canceled 
flights are clearly examples of deceptive practices by the 
airlines.
    This isn't new. We went over this almost 10 years ago in a 
hearing of this Committee, at Dallas Fort Worth. There were 57 
flights, regularly scheduled for departure at 7:00 a.m. No 
airport in the world can depart 57 flights at the same time. 
And the airlines, in a parade before this Committee, said, we 
know that we are not being candid with the public. FAA said the 
same thing. And everybody knows this.
    So you mean all the travelers are in on the gag? I sign up 
for a 7:00 o'clock flight knowing it is not going to leave 
until 8:00? Baloney. I sign up for a 7:00 o'clock flight 
expecting to leave at 7:00. And I know that 57 aren't going to 
depart at the same time and you know it. So why don't you do 
something about it? The reason we are having hearings is that 
the Department hasn't done anything about it and the airlines 
haven't and the FAA hasn't. Without waiting for your responses, 
I am just telling you that a case is building for something to 
be done in the upcoming authorization. And that something is 
going to be, in my mind, a fine that means something, that 
takes some pain out of the airline, and enforcement that we 
will direct to be done. I don't want to send through this 
Committee, a series of amendments by members are on the House 
Floor, about how many inches are going to be from one knee to 
the seat in front of you and how much of an incline will be 
allowed on the seat recline from the passenger just ahead of 
you. We were all set for that sort of thing seven, eight years 
ago. That is not productive.
    Airlines signed up for a passenger bill of rights. They 
said, let's cure the problem. It was up to your department to 
enforce it, whether you were there or someone else, your 
predecessor or your successor, it hasn't been done. And the 
airlines have to clean up their act. We have had Northwest with 
their mess in Detroit and JetBlue with theirs. Each has tried 
to correct their problems. But the problems come up with some 
other carrier. They don't seem to learn from each other.
    And you are the court of last resort. If deregulation is 
going to mean anything, if we are going to hang onto it and 
hold onto it, then you have to start taking these complaints 
seriously and taking action on them. Or as I said, we will 
bring a bill to the Floor and have a flood of amendments as to 
how many bags you can put in the overhead, what size they 
should be, what size should the overhead compartment be. You 
think these issues are--wait until we get to the Floor. We are 
going to have 433 people offering amendments.
    [Laughter.]
    Mr. Oberstar. The airlines will all go berserk.
    So I am just telling you, we are going to have some tougher 
enforcement, we are going to have tougher fines, tougher 
penalties. If you want to keep the Government out of deciding 
market entry and pricing for air carriers, then the air 
carriers have to do their job of serving the public, and that 
means more than what they are doing now. You don't need to 
respond. It would be painful for you to respond. You might say 
something that would get you in trouble at the Department, or 
in trouble up here, or in trouble with the airlines.
    Mr. Steinberg. If you would like me to respond, I can 
address some of the many questions.
    Mr. Oberstar. You are welcome.
    Mr. Steinberg. Let me start by saying that we agree, the 
airlines have to do a better job. It is our job to oversee 
their compliance with their promises to their customers. We 
have a lot of empathy when things go wrong.
    It isn't in fact the case that we are doing nothing. 
Obviously, Mr. Chairman, we are not doing enough. But by your 
account and by many other of your colleagues accounts, but----
    Mr. Oberstar. I encourage you on that point to take the 
IG's report home with you, put it at your bedside table and 
read it over tonight. When you wake up at 3:00 in the morning, 
read it again.
    Mr. Steinberg. Of course we will look at it and study it. 
We have a pretty good track record of working with the IG's 
office.
    But just to give you a few examples, over the last six 
years, the Department has assessed roughly $22 million in 
penalties. Yes, a lot of them were offset. To explain our 
policy on that, I think the Inspector General, with all due 
respect, may not understand completely what we do. We don't 
give an offset for just coming into compliance with our current 
rules. Where we give an offset, it typically is paying for 
improvements that aren't required by regulation. And so we make 
a judgment that it makes sense, because we can get more for the 
public by doing it that way.
    We do forgive part of the penalties, typically about half, 
but there again, sort of the reason is that we hold that out 
over them. It is not an unconditional forgiveness. If they 
violate the consent order that is signed, then we collect the 
penalty. So I did want to correct that.
    With respect to the issue of enforcement on scheduling 
items, first let me tell you that the Office of Enforcement, 
which of course is part of the General Counsel's Office at DOT, 
is right now in the midst of settling or going through consent 
order proceedings with eight carriers on the specific issue of 
whether they disclose the on-time performance statistics as 
they are required to do when a customer requests it. That is a 
result of an investigation that involved about 20 carriers, and 
they found that 8 were seriously out of compliance.
    I am also told that we are launching an investigation 
specifically into unrealistic scheduling. As you probably know, 
we have a regulation that prohibits unrealistic scheduling as a 
deceptive practice. Now we are looking at stepping up 
enforcement efforts there. We are sending investigatory letters 
out or will be shortly to all major carriers. We want to 
understand, as you pointed out, sir, how it is possible that a 
flight could be late 70 or 80 percent of the time and that 
information is not disclosed in an adequate way to the 
customer. So I expect you will see activity from General 
Counsel's office on that as well.
    Just one final comment, sir. The Office of Aviation 
Enforcement has about 30 people. They are very skilled, 20, 30 
years experience typically. They have been focused in ways that 
Congress has directed us. Several years ago, there was more of 
an emphasis on dealing with disabled passengers and civil 
rights issues. So there were many consent proceedings brought 
on that basis. I can assure you that we are listening and that 
resources are being shifted to focus on these issues that have 
been raised today. Thank you.
    Mr. Oberstar. Thank you, Mr. Steinberg. I want to commend 
the Inspector General on the splendid service your office has 
provided with this report. It is a very detailed report, and 
the report last fall. I want to assure you, the Chairman is 
going to keep an eagle eye out. We need more, we need a lot 
more people in the Department. We need more air traffic 
controllers. We need more inspectors in the maintenance 
positions. We need more inspectors overseas for foreign repair 
stations. And we clearly need more people to defend the public 
interest in aviation. That is the role of the Department, to 
stand between the traveling public and the airlines in the 
public interest.
    Yes, you have done a good job, and I should have commended 
you at the outset on the civil rights issues and 
responsibilities that we urged upon you in legislation. But 
this is the next frontier. What has gone before us is not 
satisfactory to a large segment of the traveling public. We 
will address it in the upcoming legislation.
    Thank you again, Mr. Chairman, for your vigilance in 
holding these hearings.
    Mr. Costello. The Chair thanks the gentleman.
    The Chair recognizes the gentleman from Illinois, Mr. 
Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing today.
    I want to start out with what may be an embarrassing 
admission. Until this hearing, I did know there was a 
Department of Transportation and an FAA. However, I did not 
know that there was a phone number to call to register a 
complaint about any problems with a flight on an airline. I 
wholeheartedly concur with Chairman DeFazio about that, that it 
needs to be made more public. We are talking here about, and 
Mr. Steinberg talked about the marketplace and allowing the 
marketplace to make sure that things are operating well, 
operating efficiently. We oftentimes will do that, we talk 
about marketplace imposing its own regulation.
    One of the things that is very important when we are 
talking about a market, for a market to operate efficiently 
there needs to be perfect information. If you go back, look at 
your economics textbook, it assumes perfect information if you 
are going to have a perfectly efficient market. Obviously, if 
information is not available and people do not fly often enough 
to really get information, just collect it for themselves and 
then know further down the line who they may not want to fly.
    So there has to be a greater collection of this 
information. Like I said, I had no idea there was such a 
number.
    Now, I want to ask Mr. Scovel about the, I know in the 
airline customer service commitments, they include a provision 
specifying how bumped passengers can be handled with fairness 
and consistency. Now, how has this provision been implemented 
by the carriers?
    Mr. Scovel. Thank you, sir. To respond to your question, we 
have found uneven implementation of that specific provision of 
the customer service commitment. In fact, we have found in our 
previous reports that passengers bumped from the same flight 
have been offered different amounts of compensation. Our 
understanding of the provision is that passengers bumped from 
the same flight should be offered the same compensation. And we 
have reported such.
    Mr. Lipinski. I know that I experienced a long delay 
recently, I was flying with my wife. I received an e-mail 
saying that I was going to be compensated with 10,000 frequent 
flyer miles, something like that. I told my wife, and she said, 
I didn't receive anything like that. So I am not really sure 
why that was the case.
    But I want to go further, another issues besides being 
bumped. There are concerns that I hear from people, although 
they haven't been raised here, about canceled flights. Not 
because of weather, but what is termed, because of mechanical 
problems. And there are some questions about why this happens, 
what these mechanical problems may be. I think at the very 
least, I have not seen this, maybe Mr. Scovel you have, this 
has been in an IG report, but is there any effort to collect 
information on cancellations of flights and the reasons for the 
cancellation of flights?
    Mr. Scovel. I should defer to Mr. Steinberg to ask whether 
the Department or FAA may have undertaken any such study. I can 
say that, for my office, we have not examined that particular 
cause for the event.
    Mr. Steinberg. We do collect information on cancellations. 
I am not certain whether we have the data divided by the 
reasons given for cancellations. I will say this, that is one 
of the most common questions that I get is, the plane seemed 
empty and they suddenly came on and said, the flight was 
canceled, and I am suspicious. The reason that that happens is 
that when the airlines are required by circumstances, say a 
mechanical problem, to cancel a flight, if there is identical 
equipment, the same aircraft at the airport, they try to figure 
out the least number of passengers to impose the inconvenience 
on. Therefore, if they can substitute an aircraft for the 
flight that had the mechanical but had the most passengers 
leaving, they will do that.
    Why it is explained the way it is, again, that is a fair 
question. But it isn't the case, to my knowledge, that airlines 
look at load factors and say, let's cancel that flight because 
there are not a lot of passengers. It would be illogical for 
them to do that, because the equipment needs to get to its next 
destination for their schedules to work.
    Mr. Lipinski. Thank you.
    Mr. Costello. The Chair recognizes the gentleman from 
Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. I am not sure who to 
direct this to, so whoever wants it can just take off with it.
    I want to talk about the St. Patrick's Day weekend 
massacre. I was supposed to fly to Memphis. A lot of people 
were supposed to fly everywhere and the flights were canceled 
because of ice. Was that the cause of there not being enough 
de-icing machines at the airports?
    Mr. Scovel. Sir, my office has not had occasion to examine 
how airports have tried to prepare for events such as ice 
storms. I can say, and you may have noticed in our testimony, 
too, that some of my staff were caught in the same ice storm 
over St. Patrick's Day weekend.
    Mr. Cohen. Right. I understand that. It makes me feel no 
better.
    Mr. Scovel. I know.
    Mr. Cohen. Whose responsibility it is, the airport or the 
airlines, to have de-icing equipment?
    Mr. Scovel. My understanding, sir, it is the airport. Now, 
the airlines are certainly interested in that. They have the 
immediate economic interest in being able to move their 
equipment and passengers.
    Mr. Cohen. So airlines don't have their own de-icing 
equipment, it is all the airport's?
    Mr. Scovel. That is my understanding.
    Mr. Cohen. Anybody else have a different understanding?
    Mr. Steinberg. I am not sure. I think there are situations 
where the airlines have their own de-icing equipment. I could 
follow up and get you a direct answer on that.
    Mr. Cohen. Thank you, sir. I read somewhere where it was 
the airlines and they didn't have enough de-icing equipment and 
that is why flights were canceled.
    Mr. Steinberg. One of the things I think we are observing 
now is that because of what happened on Valentine's Day and 
last December, the airlines are being a bit more cautious and 
canceling flights more often than they were before. We were 
actually seeing that in some of their financial results. That 
just goes to illustrate the complexity of the system. If you do 
something over here, it tends to----
    Mr. Cohen. What is the policy when the flights cancel like 
that? Just tough luck because it was God's will? Is that it, 
you have to go Sunday and Friday night and kind of work on it 
that way?
    Mr. Scovel. Well, the airlines have different policies. 
JetBlue, when it announced its customer service commitment, or 
bill of rights, after its Valentine's Day event, it addressed 
cancellations. But it is in terms of what they term a 
``controllable irregularity,'' I believe. In other words, 
something that may have been under their control, perhaps 
mechanics----
    Mr. Cohen. Let me ask you more directly. What could you do 
on behalf of the public to have some regulations to require 
that there be compensation adequate to compensate people. You 
get a round trip ticket to Washington, as some people who were 
traveling with me had. They were told they couldn't, on Friday 
evening they couldn't get out until Monday morning. They didn't 
want to go back to the hotel at a thousand bills a night, stay 
in a hotel for two or three more days. So we rented a car and 
did the journey back to Memphis, like the Pope used to do it, 
more or less. Fifteen hours later, we arrived.
    They don't need that return trip ticket. Shouldn't they 
have some redress?
    Mr. Scovel. In terms of----
    Mr. Cohen. Yes, who wants a one way ticket from Washington? 
You have to get here to use the ticket, you have to get on your 
15 hour drive to drive up here again, or rent a car and take 
advantage of it?
    Mr. Scovel. A refund of that portion of the ticket.
    Mr. Cohen. Shouldn't that be mandatory?
    Mr. Scovel. Sir, I would leave that as a policy decision 
for the Congress. That involves certain economic 
considerations, and, as Inspector General, I believe my role is 
just to present facts and data for your information and 
consideration----
    Mr. Cohen. Mr. Steinberg, do you have a different role? 
Anybody got a role on this?
    Mr. Steinberg. Our understanding is that generally if a 
flight is canceled, completely, and a passenger is not re-
accommodated, they get a refund. I think that is the policy of 
all major carriers today. The situation does arise, of course, 
when they are accommodated, but in a way that is not completely 
satisfactory and what do they get in exchange for that. My 
belief is that the practices of the airlines vary all over the 
lot in terms of vouchers and now we have seen JetBlue set forms 
of compensation.
    But we do not have a regulation specifically that requires 
refunds in the case where the passenger is involuntarily denied 
boarding, where we do have a regulation.
    Mr. Cohen. And I guess some of that issue is, was it 
involuntarily denied, or should the airlines have had de-icing 
equipment? That is an issue we haven't determined a factual 
basis for, whether it was the airline or the airport. But it 
was reported in one major publication that it was the airlines 
who didn't want to spend the money on de-icing.
    I can understand it, but if they save money on de-icing, 
they ought to spend the money on taking care of the passenger. 
The passenger I am talking about bought their tickets through 
some type of a special thing with Merrill Lynch. They gave up 
oodles of amounts of points to get these tickets, first class 
tickets. Well, you compensate them somehow. I don't think they 
were.
    Mr. Smiley, do you have an answer?
    Mr. Smiley. Yes. With regard to the de-icing equipment, I 
am familiar with what occurred in Newark, and Continental 
Airlines in particular had some equipment that broke after a 
period of time during that weekend long ice storm that they 
had. I don't know the number, maybe seven or eight machines, 
and two or three of them failed after a period of time.
    So I believe that it can be either the airport or the 
airlines that own the equipment and operate the de-icing pans.
    Mr. Cohen. Thank you, sir.
    Mr. Costello. The Chair thanks the gentleman from 
Tennessee. And let me thank all three of our witnesses for 
being here today, and in particular Mr. Scovel, let me 
compliment you on your work as Chairman Oberstar did. We had a 
chance to read your testimony and discuss it, and we appreciate 
the information that you were able to provide to us.
    The Chair at this time would ask the next panel to come 
forward as I introduce you. My understanding is that Mr. 
Neeleman and Mr. May both are on tight schedules here, so we 
will try and get you up and get your testimony as quickly as we 
can.
    Mr. David Neeleman, who is the Chief Executive Officer of 
JetBlue Airways Corporation; Mr. James May, President and CEO 
of the Air Transportation Association of America; Mrs. Kate 
Hanni, the Executive Director of the Coalition for Airline 
Passengers' Bill of Rights; Mr. Kevin Mitchell, the Chairman of 
Business Travel Coalition; and Mr. Paul Ruden, Senior Vice 
President for Legal and Industry Affairs of the American 
Society of Travel Agents.
    If you will take your seats, and we will begin by 
recognizing Mr. May, the President of the Air Transport 
Association. We would ask all of our witnesses, your entire 
statement will be submitted into the record and we will ask you 
to summarize your statements under the five minute rule.

       TESTIMONY OF JAMES C. MAY, PRESIDENT AND CEO, AIR 
 TRANSPORTATION ASSOCIATION OF AMERICA, INC.; DAVID NEELEMAN, 
  CHIEF EXECUTIVE OFFICER, JETBLUE AIRWAYS CORPORATION; KATE 
HANNI, EXECUTIVE DIRECTOR, COALITION FOR AN AIRLINE PASSENGERS 
 BILL OF RIGHTS; KEVIN P. MITCHELL, CHAIRMAN, BUSINESS TRAVEL 
  COALITION; PAUL M. RUDEN, SENIOR VICE PRESIDENT, LEGAL AND 
      INDUSTRY AFFAIRS, AMERICAN SOCIETY OF TRAVEL AGENTS

    Mr. May. Thank you, Mr. Chairman. In the interest of time, 
I will truncate my oral even more severely than I would have 
otherwise. I am pleased to be here on behalf of the nearly 
400,000 passenger airline employees who every day make it their 
mission to safely and smoothly transport over 2 million 
passengers throughout the United States and the world. Much has 
been said today about the quality of airline customer service, 
some of it fairly harsh, some of it fair and well-deserved. 
With more than 20,000 flights a day, we may not get it right 
every time, but we do get it right most of the time. For the 
times we don't, we do apologize.
    What troubles me ius the suggestion that our members and 
employees don't care about how passengers are treated, which is 
not true. They care deeply, and the service they receive is 
very important.
    Following safety, on-time service is the most important 
factor for success in the airline business. The reputations 
that airlines earn for good service is the currency they have 
to offer in the marketplace.
    I would like to make two fundamental points. I don't think 
you can effectively legislate airline industry response to 
irregular operations, especially when severe weather strikes. 
Arbitrary deadlines and inflexible standards will have serious 
unintended consequences.
    Extreme weather delays and cancellations are the enemy of 
every airline, crew member and passenger. They are costly. They 
drive missed connections, mis-handled bags, upset flight 
schedules. And in the worst case, they have a cascading effect 
that can spread to many cities and disrupt passengers' plans 
for several days. We saw in the St. Patrick's Day storm that 
there were over 3,300 cancellations, stranding thousands of 
passengers and upsetting spring break plans for many. If we 
don't have any place to put the passengers on succeeding 
flights, that is when we have those cascading effects.
    So those factors are incentive enough for our airlines 
members to avoid cancellations and delays whenever possible. It 
is in our best interest to complete as many flights as 
possible.
    Recent events have caused us, however, to review our 
policies and procedures, update contingency plans and engage 
key airports in discussions about dealing with severe weather 
conditions. In addition, as you heard earlier, the DOT 
Inspector General is reviewing these incidents and will issue a 
report shortly.
    Mr. Chairman, we are not waiting for those reports. I have 
just concluded a tour of our company headquarters, and we are 
aggressively pursuing updating our plans. We requested the IG 
DOT investigation. I think it will yield some very positive 
results. And we look forward to the opportunity to not only 
aggressively update our plans, but to meet with the Inspector 
General, key members of this Committee and the Secretary of 
Transportation to address those recommendations.
    I don't think, however, that Congress can legislate good 
weather or the best way to respond to bad weather. Because 
every situation is in fact unique. As I said earlier, every 
irregular operation is different. In December it was recurring 
thunderstorms. In February it was snow, and very importantly 
ice pellets, a subject that we ought to talk more about. This 
week, it was intense rain and high winds along the East Coast. 
Operational flexibility is needed if passengers, crew members 
and airplanes are to reach their destinations when different 
types of adverse weather conditions arise.
    A strict three hour limit, even with two extensions, I 
think eliminates much of the flexibility that we need to 
actually complete those flights whenever possible. No passenger 
likes a delayed flight, including me. What they like even less, 
however, is not being able to get to their destination at all, 
or to have a two or three day delay in reaching their final 
destination.
    So in conclusion, flexibility is the best tool the airline 
has to respond to severe weather conditions. With 42,000 city 
pairs, more than 20,000 flights a day, we needed flexibility to 
respond to irregular operations and get passengers to their 
destinations safely, which is our ultimate goal.
    Have we made mistakes in terms of our customer service? You 
bet. Do we apologize? Absolutely. Can we do better? For sure. 
We are committed to work with this Committee and the Department 
of Transportation to make sure that happens.
    Thank you.
    Mr. Costello. We thank you.
    Mr. Neeleman, you are recognized at this time.
    Mr. Neeleman. Thank you very much, Mr. Chairman and members 
of the Committee, for this opportunity to speak to you today.
    We were invited here and agreed to come by our own 
volition. We are the only airline that has agreed to do so. I 
think it exemplifies our up-front nature of what happened in 
the events of Valentine's Day. What happened was unacceptable 
to our customers and it was unacceptable to our for our crew 
members. We are deeply sorry for those events. It really has 
become a defining moment in our company as we have changed so 
many things.
    What happened on that day, and it was interesting, 
Congressman Cohen's comments about de-icing, there is a 
relatively new Federal mandate that says we can't fly in 
certain conditions. We are basically grounded. That is now 
being reevaluated by the FAA. We have been flying lots of years 
and never had that problem in these conditions. It was 
mandated.
    So that is what started the series of events. I am not 
blaming that for what happened to our people that were stranded 
on airplanes. We have now come up with contingency plans. As 
long as I am head of this company, it will never happen again. 
We have purchased extra equipment and we have extra places to 
evacuate customers with extended delays. We have new systems, 
procedures and leadership.
    So I am confident that these things, the way it happened on 
St. Valentine's Day will never happen again as far as stranding 
our customers. Like I said, it was unacceptable.
    We have also enacted a customer bill of rights, which we 
have disseminated on our web site and to our customers that 
spells out exactly what is expected of them with us, and 
defined compensation, explaining what is controllable, what is 
uncontrollable and what remedies they have in the case that 
they have a bad experience with us. So we are really focused on 
our customers. We have always been a customer service company. 
It is something that we pride ourselves in. We have won award 
after award. So our reaction to this event is not dissimilar to 
the way we have treated customers in the past.
    I think the reason I agreed to come and be here today and 
testify is, I am concerned about the legislation that has been 
proposed. Sometimes the best intentions, and we are going to 
hear from Kate Hanni here in a second about her horrible 
experience, and I know it was a horrible experience. But I 
think if you have the best intentions, you can really come up 
with some really bad unintended consequences.
    On just a good day in New York, in the summertime, you can 
have taxi-out times of an hour, hour and a half. We get a 
thunderstorm that will come over the field and close departures 
for a couple of hours, it would be very easy to have somebody 
on a plane over a three hour period of time. To the extent that 
our pilots were mandated to bring people back to the gate at 
that limit, chaos would reign at a place like LaGuardia, where 
there is very little maneuverability.
    I think it would be interesting for Congressman DeFazio and 
Mr. Chairman to come out to Kennedy on a night when it is 
snowing. We are not talking about 10 airplanes in line, we are 
talking about 80 airplanes or 100 airplanes that are trying to 
get out. If we were to have to come back to the gate, it would 
be physically impossible in some places, to get to the gate to 
let people off, if two or three people wanted to get off an 
airplane, it would be very, very difficult to do that. It 
would, more importantly, create a huge disservice to the other 
98 percent of the customers that are on board that don't want 
to get out of line, don't want to go back to the gate, and 
their planes could be stranded. We could find ourselves in a 
position where we had thousands of people in the airport 
sleeping overnight instead of going on to their destination, if 
this was mandated.
    Now, I take all of your comments to heart. This industry 
has to regulate itself. We have to have evacuation plans, we 
have to have contingency plans. And JetBlue is committed to 
doing that in the future.
    But let us work together with the Department of 
Transportation, with the FAA, to figure out how to not keep 
airplanes, and to make sure that we don't strand customers and 
have ways of letting people off without mandating these hard 
limits, which during an irregular operation would potentially 
prove catastrophic for our customers, which is the last thing 
that we want to do.
    Thank you very much for the time.
    Mr. Costello. Thank you.
    Before we hear the testimony of the other witnesses, we 
will respect your time commitment, so I am going to ask a 
couple of questions and see if other members have questions or 
Mr. May or Mr. Neeleman.
    Mr. Neeleman, let me just say to you that both, Mr. May 
commented that you can't legislate good weather and you 
indicated that the weather, of course, is beyond your control. 
I have flown out of JFK on a night where the weather was bad 
and we had delays. I think everyone understands that. Everyone 
understands. No one is telling you that you have to control the 
weather.
    The issue here is communication, communicating with the 
people who in fact are your customers. As I said in my opening 
statement, I was pleased that you took the action at JetBlue 
that you did immediately after your incident.
    But the other airlines have not. Some have, better than 
others. But it defies logic to me why the other airlines 
wouldn't be doing exactly what JetBlue has done, why they 
wouldn't communicate to their passengers what circumstances you 
control, and what other things you can't control. What happens 
if in fact because of weather, a flight is canceled, 
communicating with them, giving them information and telling 
them what their rights are. That hasn't been done.
    When the airlines say today, we are going to work, please 
don't legislate and we will try and work this out internally, 
that was said in 1999. Everyone trusted the airlines to do 
that. In fact, here we are back again doing these hearings 
because one, the airlines didn't live up to their promises; 
two, the department, the DOT didn't handle the responsibility 
in making certain that the promises that were made in fact were 
carried out; and three, this Subcommittee and the Congress did 
not do their job in oversight of the agency and of the 
industry.
    I am inclined, as I said in my opening statement, not to 
legislate these things or to do a one size fits all. But unless 
the industry addresses this and addresses it now, there is 
going to be Congressional action. There is no question about 
it. As Chairman Oberstar said, in a markup of the FAA 
reauthorization, unless there is something in place and 
evidence that in fact the airlines are following the policies 
that they put in place that can clearly be understood by their 
passengers, then when we do a markup of the FAA 
reauthorization, if that is not in place and being followed, 
then you are going to see members offering amendments and you 
are going to see an industry that will in fact be regulated 
when it comes to passengers and their rights.
    So I just wanted to comment, and I wanted to ask Mr. May, 
you heard the Inspector General talk about the action that was 
taken by ATA after both the American Airlines incident in 
December and JetBlue in February. Basically the IG, as I take 
it, says that ATA is really just taking the ball away from the 
airlines and putting the responsibility on the agency. I want 
to give you a chance to comment on that.
    Mr. May. Thank you, Mr. Chairman. I know that that can be 
an interpretation, but as somebody who sat in the board meeting 
and participated in the discussion prior to that, I can tell 
you that it was with the most sincere objectives and motives 
that this industry went to the Department of Transportation, to 
the Secretary of Transportation, asked her to have the IG look 
at the specific circumstances surrounding not just the Austin 
event but the events in New York with JetBlue and elsewhere and 
how we are responding. We have provided our customer service 
plans to the IG. We have provided our contingency plans to the 
IG, while at the same time assuring that we are, as I said in 
my oral statement, sitting down to re-review those and make 
sure that we are updating them and making the changes that are 
necessary.
    I think this is a very different industry, from the 
leadership right on down, than it was in the last event, in 
1999, when this took place. I think our CEOs are absolutely 
committed to the most positive kinds of changes when it comes 
to customer care.
    I would reiterate that we don't think that legislating 
behavior from the perspective of when we take off and when we 
land, we want to leave safety as the primary consideration, and 
the opportunity to get where we are going and get our 
passengers where they are going safely is the primary. So Mr. 
Neeleman and I are absolutely in accord on all of these points.
    I think our board also recognizes that customer service is 
a critical component. We have to equally address that.
    Mr. Costello. The Chair recognizes Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I guess we keep focusing on very specific legislation and 
behavior that could impinge operations. I am not sponsoring nor 
recommending any legislation that would do that. And my past 
attempts on this issue haven't either.
    What we are talking about, though, is establishing a basic 
floor. For instance, Mr. Neeleman, you have here, it says, 
customers are experiencing an onboard ground delay for more 
than five hours, JetBlue will take necessary action so that 
customers may deplane. Well, I think it would be worth going 
through an FAA rulemaking and determining if that is a good 
standard for the entire industry. Because right now, apparently 
some airlines don't have that standard. And if we say, well, we 
don't want to impede operations, well, sorry, it was ten hours. 
I think five hours might be right, maybe not. Maybe it could be 
a little less.
    But I think establishing a floor makes sense. I just don't 
understand. And Mr. May, I would hope that you would agree with 
that. We shouldn't leave it to the vicissitudes of the 
marketplace, because nobody knows what their contract of 
carriage said, except the people at JetBlue now, about how long 
they might be kept prisoner on a plane without any offer of 
getting off.
    So we are talking about some really basic floor. And then 
if anybody wants to compete over and above that, maybe the FAA 
would say it was ten hours. Whatever. But then JetBlue says, 
hey, we are only five, we will advertise it. So when people 
know that they are stuck at JFK, they are only going to be 
stuck on the plane for five hours.
    It seems to me, and I had this discussion when I was a 
freshman with Mr. Bolger who preceded you in this job. I said, 
you do not want to represent the industry to the lowest common 
denominator of your organization, and you don't do the ATA or 
the industry a service by doing that. I know it is hard to run 
a large organization like yours and if you have someone who is 
a substandard actor over here, you are trying to urge them to 
move up, but then again, you don't want them to pull out of the 
organization, so you are not going to beat them over the head 
with a club. So you come and say these sorts of things.
    But my point would be, we have made your job easier if we 
say, in reasonable areas where we can agree, where we are 
identifying sort of ongoing chronic problems, we are going to 
have the FAA knowing about operational stuff come up with a 
reasonable rule and everybody will have to follow it and 
anybody who wants to exceed it can. Wouldn't that be 
reasonable? I am not talking about arbitrary stuff here.
    Mr. May. I think the key, Congressman DeFazio, is making 
sure that we don't have a standard that doesn't acknowledge 
that JetBlue operates in certain markets with certain equipment 
and certain conditions that can be very different from some of 
the competitors in the business, United Airlines, American 
Airlines and so forth. So I think probably we can take a long 
look at trying to find some basic----
    Mr. DeFazio. I understand your caveat. It is a good caveat. 
But I don't think that humans vary that much. And a human 
trapped on United Airlines at Denver for five hours is not 
going to be any happier than a human trapped for five hours at 
Kennedy or gee, maybe even in beautiful Paris, France, when I 
am trapped for five hours on the ground, I am still trapped 
five hours in a can with a bunch of people who run out of 
water, the lavs are getting ready to overflow and we are 
sitting there and no one can tell us what is going to happen.
    That is what we are talking about here. I just think that 
we are going to have to look very carefully as a committee of 
those sorts of what I think would be reasonable floor 
standards, understanding, I know it has been 21 years, I 
understand operational stuff, I have flown over 3 million 
miles, I am pretty well versed in what is good, what is bad, 
what works, what doesn't. And I don't think that you are going 
to find the Committee doing things that are unreasonable, going 
to impinge the operations. But they are, I think, going to set 
a basic floor.
    Let us go to maybe something we can agree about.
    Mr. Neeleman. Can I respond to that for just one second?
    Mr. DeFazio. Sure.
    Mr. Neeleman. Just from our perspective. I met with some 
people who were on our planes that were on for nine hours, on 
the plane. They said that the pilot announced at five hours 
that there was a break in the weather, the ice pellets were 
potentially going to stop, and they said, we are going to 
leave. Everybody on the plane cheered after five hours.
    Mr. DeFazio. Just like when they used to announce they were 
going to ban smoking. I understand. We are all captive. We want 
to go somewhere.
    Mr. Neeleman. Nobody wanted to get off the airplane.
    Mr. DeFazio. That is fine.
    Mr. Neeleman. They all wanted to go----
    Mr. DeFazio. Okay, well, then, maybe we will mandate that 
we have a vote after five hours, and you can have a ballot.
    Mr. Neeleman. If you had that vote, if you were number one 
for takeoff, nobody would----
    Mr. DeFazio. Yes, I know. But the point is, I think that 
this needs further deliberation, rather than just allowing it 
to just stay out there and let market forces, because the 
market is not transparent. Let me go to, one thing I think we 
can agree on, I think, is the 30-60 rule, apparently. I have no 
idea why that would still exist, since many communities are 
served now by commuter jets that are less than 60 seats.
    Mr. May. Correct.
    Mr. Neeleman. We agree on that.
    Mr. DeFazio. Okay, good.
    Mr. Neeleman. And we don't over-book our flights.
    Mr. DeFazio. We will do what the FAA can find out why. And 
then this end of the line thing. It seems to me if 
operationally it would be possible, I know there are 
extraordinary constraints at Kennedy and elsewhere. But there 
are some times, some places where applying the end of the line 
rule might not make sense, for instance, at Denver, where there 
is a lot more capacity for planes to return to a terminal. It 
may not be your gate, but there are lots of gates there. Or 
some other place. I mean, it just seems that that should, the 
FAA apparently has some process to break that rule with the 
customer service representative, whoever that is, wherever they 
are and however they can be contacted by the pilot. I think we 
ought to be taking a look at that.
    Mr. Neeleman. I think it is a good question, but when you 
think about it in practical terms, even if we could get back in 
line or back to the front of the line, if two people in the 
back of the plane said, my business meeting, I am not going to 
make it, I want off the airplane, this is----
    Mr. DeFazio. Nobody is taking it to that extreme. I have 
been there with people, yes, there are a lot of people you 
don't want to be on a plane with.
    Mr. Neeleman. But if two people can affect 148 people, 
delay their trip another two hours because two people say----
    Mr. DeFazio. Right, and I have been on planes where I had 
to come back and I was delayed four hours out of Dulles because 
a woman was very nervous about the flight and the pilot went 
back. I said, I can't believe you went back because that woman 
was nervous. But they did and she got off and then they had to 
find her bags, which, since we don't offer RFID on baggage, it 
took about an hour and a half to find her bags. Then we got to 
leave.
    So I understand that. But again, that doesn't mean we 
exclude, we say, gee, we will just keep the in-line thing and 
it will be totally inflexible, or you will have to find the 
elusive customer--I am saying some level of review and 
scrutiny. I think the point the Chairman is trying to make is 
that having an industry-friendly Administration is not always 
the best thing you can have. They will let a rule languish that 
the industry wants because they, we don't want to make any 
rules on the industry.
    So it is not necessarily serving your needs. And not having 
oversight by the committee of jurisdiction, you let these 
things get pent up, and then you get some of our colleagues who 
don't understand the industry introducing legislation that 
might become popular and might move if there is another 
incident or two.
    So just kind of work with us here.
    Mr. May. We hear the counsel of the Chairman very clearly.
    Mr. Neeleman. And we are working, all we care about is 
customers. If we didn't have our customers, we wouldn't be in 
business. So all we are trying to do is help our customers. We 
think some of this legislation, and I know you haven't 
sponsored it, but it could actually hurt customers.
    Mr. DeFazio. I understand. That is why I am not a co-
sponsor of those particular bills.
    But again, and just two more quick points, Mr. Chairman, 
thank you for being generous. I think these are important.
    If you do look, and I am sure you have, the IG report, 
there are two things that again, the disclosing of chronically 
delayed flights. Yes, there are a couple of web sites where you 
can go and get some fragmentary data about airline performance, 
and I have done that. But I think they make a good point there 
about disclosure. If we want to talk about something that is 
market-based, for consumers, if you go back and read Adam 
Smith, it has to be, it can't be opaque, it has to be 
transparent. Everybody has to have perfect information.
    So I would think that the airlines would rush to provide 
this information, except maybe there are a few who have such 
miserable records with certain flights, they don't want to 
disclose it. And then everybody else kinds of says, well, they 
are not doing it, so we are not going to do it. So again, this 
is an area that we are going to have to look at, if the 
industry doesn't do a better job there. And then just the 
emphasizing to customer service the importance of providing 
timely and adequate flight information.
    I had one, everybody relates to it, but you say, oh, yes, 
they will do that. But there are times it doesn't quite work. 
They have what I call a random excuse generator, because you 
can go to the gate and they will look at the computer and they 
will say, oh, it is this. Then you go to the Red Carpet room 
and oh, it is this. And I will say, well, that is really 
different. They said they didn't have a crew, you said it is 
a--and there is this ongoing credibility problem. United once 
had this great ad campaign. They knew this was what upset 
business travelers. I told the former CEO, I said, this is the 
greatest ad campaign I have ever seen, you guarantee people, 
you were going to tell them, no more than 15 minutes, you will 
tell them exactly what is going on. I said, but you had better 
follow through on it or you are going to be in a world of hurt. 
And they didn't, and they were. Thank you.
    Mr. Costello. The Chair recognizes the gentlelady from 
Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. Thank you 
for having this hearing. It is very interesting.
    I have experienced, since I have been here now a little 
while, around 15 years, every kind of weather you can think of, 
all over the Country, the airlines had to stop. I would much 
rather be on the ground when we have that kind of weather, even 
if I had to sit for eight hours, than to be up in the air.
    And let me say that I have observed some improvements in 
the way that the information is coming. I was six weeks ago or 
something like that, I was stuck in Abilene, Texas, for six 
hours on a plane trying to get to Dallas. And the pilot offered 
the opportunity for people to get off. He did say, if you get 
off, you can't get back on because of security. If you wanted 
to rent a car or whatever. And some did get off.
    They did pass out additional water, and they ordered pizza. 
It was just that by the time, the pizza didn't get there by the 
time we got a notice to leave.
    I am trying to figure out what else the airlines can do to 
accommodate passengers when this comes. I ride one two ways 
almost every week. And I know that I am not going to avoid the 
weather. And I can't challenge the weather. But I am trying to 
figure out what else the airlines can do.
    I saw this ad that JetBlue printed, which I thought was 
very, very well done. So I want to ask the two CEOs here from 
airlines, what else can you do?
    Mr. Neeleman. I will tell you, since St. Valentine's Day, 
the storm that we had, we have been racking our brains to try 
and figure out what we can do more for our customers. I think 
the difficulty arises that if you are going into like the 
President's Day weekend and you have to cancel 200 flights 
because of an ice storm in which you can't take off, now you 
have all those customers that are on canceled flights, and the 
flights are full through the holiday weekend, that is a very 
disruptive thing for our customers. It is really disruptive if 
you can't get through on the phones and talk to anybody.
    So our focus has really been about notifying people of the 
cancellation before they get to the airport, and we did this 
this last weekend with the nor'easter that came through, much 
better. And then offering them the ability to re-book their 
tickets with no additional change fee or no additional charge 
so that they can go a different weekend. And do it quickly, 
through the internet, where they can push a button and have it 
automatically changed over.
    But to the extent that if you want to go on that day at 
that time, and now you can't go any more because of weather 
event, that is a hard thing to talk to customers about. I think 
just the ease of information, letting people know what it is, 
letting them get in touch with you quickly and receive an 
alternative or a full refund. I think one of the things that 
wasn't quite clear maybe on the other panel, if we cancel a 
flight, a customer, by Federal law, is entitled to a full 
refund. We don't hold onto people's money if we cancel a 
flight.
    So I think it is just the communication and letting people 
know. As you said, weather will come. And so it is just trying 
to communicate better with our customers and letting them 
communicate back with us a lot easier. That is really all we 
can do when things are really, really bad on weather.
    Mr. May. Congresswoman, I think certainly I endorse 
everything that Mr. Neeleman said, and reinforce from our 
perspective that I think the suggestions made by many members 
on this panel, by the IG, the DOT and others, are things that 
we have to pay particular attention to and incorporate wherever 
is reasonable into our game plan. We thank you for your 
attention to this issue. It is very important to us.
    But at the end of the day, completing those flights is the 
most important thing, and doing it safely.
    Ms. Johnson. Thank you very much for your response. My time 
is expiring. Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentlelady. The Chair recognizes 
now the gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I actually have a 
plane to catch so I will make this quick.
    Mr. May. So do we.
    [Laughter.]
    Mr. Lipinski. Hopefully, it will be going out.
    Information, that I can't emphasize, information I think 
should be available. There should be, the airlines should, 
there is absolutely no reason the airlines should not be making 
information available about delayed flights, and cumulative 
information available about delayed flights, the most important 
thing, in the short term, for everyone sitting there waiting 
for a flight, in the long term for people being able to make 
decisions, judge airlines, et cetera.
    I have a question that had come to my mind during what 
happened with JetBlue. Is it possible to have a system where if 
you don't have any gates at airports, you can still take 
passengers off the plane, bring stairs up there, have an area 
where the plane could go and get passengers off in that way? Is 
that logistically possible?
    Mr. Neeleman. Absolutely. In preparation for our next 
event, we always have to have these contingency plans. We have, 
in the process of purchasing equipment, we have an area, and we 
have a luxury at JFK because we have this area, other airlines 
don't have it. But we have leased a large area where we can 
bring airplanes back and we will have stairs there. Because 
what happened on St. Valentine's Day, all the planes were at 
the gate, they were stuck to the gates, the wheels were stuck 
to the ground, we couldn't push them off, we couldn't push them 
on. But we could have done better. We have reevaluated what 
could have been done better. So we will take those planes over 
there.
    There was concern about people falling down stairs and 
hurting themselves. We didn't hurt anyone on that day, we just 
made their lives very, very miserable.
    Mr. Lipinski. You could have just carried them down.
    Mr. Neeleman. That is right. We did that eventually, but we 
should have done it much sooner. So yes, we have contingency 
plans for that.
    Mr. Lipinski. Do you think this is possible to be something 
that is done regularly by all airlines, to have that available?
    Mr. Neeleman. I think it depends on the airport. Jim can 
answer that. But I think every airport should have a plan in 
place, an evacuation plan, where you have to go to a gate if it 
is open. If it is open, you have to be allowed to go there. But 
if there is another plane coming to that gate, you could delay 
another plane.
    Every airport should come up with a space, a plan to be 
able to pull something together to make sure that customers can 
get off airplanes, be it in Austin or in JFK.
    Mr. May. And Congressman Lipinski, I would endorse what Mr. 
Neeleman has said and point out to you also that in many of 
these circumstances, and we are working with the airports to 
try and update our contingency plans. But in many of these 
circumstances, when you have these terrible weather events, you 
may have 80, 100, 110 planes on the ground that are not 
expected to be on the ground at that particular time. Those are 
in addition to those that are sitting at the gate.
    So one of the complications, again, depending on the 
airport, and the bigger the airport, the bigger the problems, 
Chicago being one where you could have just no place to put 
some of those planes for extended periods of time. That is why 
we want to have as much flexibility in our contingency plans 
and make sure they are adjusted airport by airport, and try not 
to have a mandate of one size fits all.
    Mr. Lipinski. Very quickly, Mr. May, the Inspector General 
said that there has not really been, the uniform compliance 
with the compensation for people who are bumped from flights, 
what is the reason for this?
    Mr. May. My sense is, and I would be happy to come back to 
you, review my members and give you a more defined answer, but 
my sense is that it is an airline by airline issue.
    Mr. Neeleman. Maybe I could comment on that quickly.
    Mr. Lipinski. Well, I am out of time.
    Mr. Neeleman. As an airline, I can just tell you that 
involuntary separation from an airline is a federally mandated 
amount of money. There is no variation on that. But until you 
get that amount, I think it is $500, airlines can negotiate 
with customer and get volunteers to come off and can offer less 
money or free tickets if they want to do it. So that may have 
led to the variability he was speaking of.
    But there is Federal law that says if you involuntarily 
take someone from an airplane, there is a specific amount, 
which ours is $1,000, theirs I think is $500, which is Federal.
    Mr. Lipinski. That is something I think it would be good 
for passengers to know. I would also like to put forward the 
possibility of, as I brought up before, of flights being 
canceled, not due to weather but mechanical problems, the 
possibility of there being some sort of compensation for that. 
It certainly has happened to me, happened twice in a row coming 
out here, and I needed to be here and expected the flight to go 
out at a certain time.
    I think that is also something that should certainly be 
considered, at least.
    Mr. Neeleman. That is what is in our bill of rights. That 
is the difference between controllable and uncontrollable. I 
can tell you that there is an infinitesimal percentage of 
flights that are canceled due to maintenance compared to 
weather. It is vastly different. We would be happy, if you 
wanted us to provide that, to provide it. But it is very small.
    Mr. Lipinski. I very much would like to see that type of 
information available out there.
    Thank you.
    Mr. Costello. The Chair thanks the gentleman from Illinois 
and thanks Mr. May and Mr. Neeleman for being here today and 
offering your testimony. We will see you in the not too distant 
future as we continue our series of hearings. Thank you.
    The Chair now recognizes Mrs. Hanni, under the five minute 
rule, to please present your testimony. Then we will recognize 
the other members of the panel after your testimony and then 
have questions for you at the end of Mr. Ruden's testimony.
    Mrs. Hanni. Okay, thank you. Mr. Chairman, members of the 
Committee, my name is Kate Hanni. Thank you for the opportunity 
to testify on behalf of the 15,000 members of the Coalition for 
an Airline Passenger's Bill of Rights. Some of them, all 
volunteers, paid their own way to be here today.
    Plus, I also want to note that all of the Nation's leading 
consumer protection organizations, including the Aviation 
Consumer Action Project, U.S. PIRG, Public Citizen, Consumer's 
Union, and the Consumer Federation of America support this 
legislation on behalf of their 15 million members.
    I have included as a part of my testimony the letter which 
all of these groups, including APBOR, sent to the full House 
this week.
    Before I begin, I would like to point out that I am the 
only person here today exclusively representing consumers, your 
constituents. Before December, I had no knowledge of airlines 
and regulations. But after my stranding, I have taken it upon 
myself to fight for the rights of millions of people. Passenger 
rights matter to anyone boarding a plane. I hope today to give 
the flying public a voice. We appreciate your efforts and ask 
for your help in ensuing our safety and well-being when 
boarding an aircraft.
    We need a new law that will hold the airlines accountable. 
On December 29th, my family, I, my husband Tim and my sons 
Landon and Chase Costello, and 5,000 other passengers were 
treated inhumanely on 121 diverted American Airlines flights. 
The horrific conditions and treatment we suffered that night 
could have been prevented with legislation protecting the 
flying public. Our tires were not glued to the tarmac.
    We departed San Francisco aboard American Airlines Flight 
1348 en route to Point Clear, Alabama, by way of Dallas Fort 
Worth, for a much-needed holiday vacation. Still recovering 
from a violent assault, this was my first trip away with both 
of my children and my husband. Due to thunderstorms, we were 
diverted to Austin. Nearly nine hours later, we were still 
sitting on the tarmac with twelve other jets.
    During those nine intolerable hours, we ran out of water, 
toilets overflowed and we were given only one 45 calorie bag of 
pretzels, which I gave to my 11 year old son. As time ticked by 
slowly, passengers started to get frustrated, angry and feel 
helpless. We were left with no information on how long we would 
be held on the plane.
    Because of the lack of care and service, a mother made 
diapers out of tee-shirts for her baby. People walked their 
dogs on the tarmac, while lightning exploded a transformer. 
Flight 534, a diabetic paraplegic was in such distress that 
paramedics were called. The passengers revolted. Because they 
were unable to remove the patient, the pilot declared an 
onboard emergency so the plane could go to a gate. On another 
aircraft, police arrested brawling people. Flight 2412, a small 
dog defecated on passengers who began vomiting and were told to 
hold their own vomit bags, due to full trash receptacles. 
People ran out of medications and others had no water with 
which to take theirs.
    Finally, against orders, our pilot drove the airplane to a 
gate, where we eventually deplaned. In order to assure we 
didn't leave, the airlines refused to unload our bags and said 
they would resume the flight the next day. By not canceling our 
flights, they did not have to refund our money.
    My husband and I were so disappointed with the airline that 
we turned our anger into advocacy. We started a blog and a 
petition and then finally, the coalition. Yet since coalescing, 
there have continued to be an epidemic number of strandings by 
different airlines in different airplanes, proving the airlines 
see passengers as cargo.
    These events are not new. They have just been tolerated 
until now.
    Two fourteen, JetBlue. Michael Skolnik, one guy, two jets, 
17 and a half hours on the JetBlue tarmac. Three five, United 
Airlines, Chicago O'Hare; 3/17, Philly and JFK. Rahul Chandron, 
I have submitted his testimony in my written statement. He has 
three strandings, starting with Northwest Airlines in 1999.
    Just when you thought it couldn't get more absurd, 
Cheyenne, Wyoming and Scotts Bluff, Nebraska, abandonment by 
the airlines. Four planeloads of diverted passengers were 
dropped off at two airports, not their destination, and left 
there with no resources. Roger Barbour was trying to get to his 
own wedding when he was dropped in Coney by United Express, and 
the planes later flew away empty. It ended up costing him 
$3,000 to get home. This is simply unacceptable.
    I have told you some of our stories. I want to tell you 
that believe the DOT and the industry are severely under-
stating the number of tarmac strandings. The airlines have said 
that all these events are statistically improbable. Evidently 
not. In fact, our analysis of the written DOT testimony reveals 
that the widely-reported number of 36 planes held for 5 hours 
or more doesn't include planes that never took off. This phrase 
in the DOT's written testimony shows their oral testimonies are 
an attempt to dissuade this Committee with statistics that 
don't include some of the more severe incidents that have taken 
place.
    The DOT and ATA tell us that tarmac delays have improved 
and complaints are down since the airlines promised to self-
regulate in 1999. By this, they must mean that an increase of 
19,000 tarmac delays of one hour or more over the year 2000 is 
a good thing. But the rest of us want these numbers to 
decrease, not increase. If we use tarmac delays of over three 
hours since 2000 and extrapolate to 100 passengers per flight, 
then only 800,000 passengers have been affected.
    This slide shows 16,186 diverted flights last year. If we 
extrapolate to 100 passengers per flight, over 1.6 million 
passengers may have experienced tarmac delays like ours in 
Austin. But there are no tarmac statistics for any of those 
flights.
    Is that the full extent of the problem? Not even close. 
This slide simply shows that the statistics the DOT and the ATA 
are using account for only 75 percent of all domestic passenger 
travel. Therefore, the Cheyenne and Scotts Bluff strandings 
would not be accounted for anywhere.
    I have outlined today why Congress needs to enact 
legislation to curb these outrageous practices and require the 
airlines to report all tarmac delays. We need to keep the 
public informed and cannot let strandings continue to happen.
    As I conclude my testimony, let's watch a clip of the 
United Express flights leaving passengers in Cheyenne, Wyoming. 
Congress must now step up and use the current FAA 
reauthorization legislation as an opportunity to ensure that 
airlines make passengers' rights a top priority once and for 
all.
    In 2001, the airlines made commitments which they haven't 
kept. And why should they? There are no consequences for their 
actions. The DOT forgives most of the fines imposed, so they 
are virtually meaningless. Please impose meaningful 
consequences in this bill, so that the legislation has some 
hope of making a difference to the flying public.
    Thank you, Committee members, for giving me the honor of 
speaking here today, and a special thank you to Representative 
Mike Thompson for taking the first step and proposing this 
life-saving legislation. Thank you. I am available for 
questions.
    Mr. Costello. We thank you for your testimony.
    The Chair now recognizes Mr. Mitchell under the five minute 
rule.
    Mr. Mitchell. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Committee, thank you for 
inviting the Business Travel Coalition to testify before this 
Committee again and to provide our views on the subject of 
airline passenger service. I am here representing corporations 
that purchase billions of dollars of air tickets and dispatch 
millions of travelers each day. Formed in 1994, BTC has 
consistently advocated the need for improved airline service 
and has provided Congress and the DOT with suggestions on how 
to ensure such improved service in the marketplace.
    However, legislation in this area is not needed, in BTC's 
view, and could make matters worse in terms of safety margins, 
flight cancellations and higher airfares. These unfortunate 
incidents do not rise to a level of national seriousness to 
warrant Federal laws governing airline industry customer 
service. Massive delays are not usual in this industry.
    That is not to say that Congress does not have an important 
role. Indeed, this hearing is timely in the larger customer 
service sense. Progress at the beginning of the decade against 
airline customer commitments was recorded for several quarters. 
Then the tragedy of 9/11, new security requirements, followed 
by SARS, the Iraq war, sky-high jet fuel prices and $40 billion 
of airline losses hit. As was said in a few different ways 
today so far, airlines, the press, the Government, all lost 
focus on these customer service commitments.
    Indeed, it is time for the airlines to refocus. 
Importantly, DOT is already moving on this issue, as we saw on 
a previous panel. In addition, the FAA is examining its role in 
contributing to extended delays, for example, with the 
confusion created during the February storm in New York 
regarding the varying interpretations of the regulation 
concerning ice pellets.
    DOT, Congress, passenger groups and the press are a potent 
combination, a highly visible bully pulpit, to inform consumers 
who in turn take purchasing decisions that drive the market. 
Reporters and customers pounded JetBlue in the aftermath of its 
customer service fiasco. Customers do have choices, and power 
to effect to change. In the case of JetBlue, the operational 
debacle cost it millions of dollars and tarnished its high-
flying image. The effectiveness of management in responding 
with changes to policies and procedures will determine 
JetBlue's future success. The marketplace is holding them 
accountable.
    In addition, in the immediate aftermath of the terrible 
conditions that American Airlines' customers endured in 
December, the airline implemented new policies and procedures.
    There are actions the Federal Government can take to 
improve the experience of the flying public. One, increase 
airline competition through open skies agreements and the 
promotion of new entrants, such as Virgin America. Prevent 
radical consolidation of the airline industry. The greater the 
competition, the more influence the customer has in driving 
service improvements.
    Number two, invest in a new satellite system for air 
traffic control, to reduce delays and improve system 
efficiency, especially during times of severe weather systems. 
Pass FAA reauthorization, so the Government and the industry 
can head off a real crisis in passenger service. Number three, 
build more runways, such as at O'Hare, the modernization 
program there that BTC supported.
    Number four, insist on better decision making on rules 
promulgated by the FAA to prevent highly confusing and service 
degrading circumstances, such as with the ice pellet 
regulation. And five, require greater DOT enforcement of 
existing carrier commitments and existing regulations and laws.
    In conclusion, while BTC believes the airlines must do 
more, a lot more to reduce delays and minimize customer 
hardships during delays, we believe that Federal legislation 
would be proven to be counter-productive and something that we 
as an organization couldn't support.
    Thank you very much.
    Mr. Costello. We thank you.
    The Chair now recognizes Mr. Ruden.
    Mr. Ruden. Thank you, Mr. Chairman, for permitting ASTA to 
share its views today.
    Since the ATA airlines adopted the 12 so-called voluntary 
passenger service commitments in 1999, DOT Inspectors General 
have twice found and soon will find a third time that there has 
been widespread non-performance of the promises made to the 
Government and the public. On behalf of the travel agents who 
serve a substantial majority of air travelers, enough is 
enough. It is time, after eight years of futility, to achieve 
closure with these problems.
    Absent a clear threat to safety, passengers should not be 
forced to remain on aircraft for periods such as six, eight or 
even more hours while waiting to take off. That does not mean 
that six hours is okay. Six hours is not okay. I will return to 
how that number can be determined in a moment.
    ASTA rejects the position that tarmac detentions are too 
infrequent and unpredictable or affect too few passengers or 
that real solutions are too costly to warrant intervention. 
Severe snowstorms and thunderstorms happen every year. It is 
time to stop looking for reasons not to deal with these 
problems and to act decisively with a program to change the 
culture of denial and resistance to change.
    Market forces are not going to resolve these issues for us. 
The airlines do not compete on customer service as a general 
rule, and after eight years, marketplace forces have failed to 
do the job. There is no reason to withhold decisive action. The 
question is, what action?
    A meaningful solution should address all parts of the 
airlines' unfulfilled commitments. We need a fundamental and 
principled solution, combining legislative, regulatory and yes, 
perhaps some self-help by the airlines. An approach that 
attacks the roots of the problem, as well as the symptoms, and 
that applies to all airlines, not just members of the Air 
Transport Association.
    There are three steps that Congress could take right away. 
First, limit the scope of statutory preemption of State 
consumer protection laws and restore consumer access to State 
courts and State law. Empowering the States to act against 
abuses of air travelers' interest in the same way they can act 
against other industries would in one simple step effect a 
major change in airline attitudes and performance.
    Second, appropriate funds to equip DOT's enforcement staff 
with the resources needed to compel compliance with DOT's 
unfair and deceptive practices authority.
    Third, mandate that all elements of the airlines' passenger 
service commitments be made part of their contracts of 
carriage. Provable violations of real promises would then be 
actionable in State courts as breaches of contract. Such action 
by Congress, however, is not sufficient. The Department of 
Transportation can and should play a critical role in refining 
the operational issues, either for regulatory intervention, 
industry action or, if necessary, further Congressional action.
    DOT should bring together the parties necessary to craft an 
informed regime that assures that airline customers will be 
treated properly. Yet in doing so, we must be sensitive to 
possible unintended consequences form imposing regulations on a 
complex and highly networked system. A joint fact-finding 
process would identify the relevant facts, risks and 
opportunities. Does it matter, for example, whether the flight 
is a domestic two hour trip or a twelve hour international 
trip? Is the position in line guarantee as requested by ATA 
even feasible?
    Under FAA rules and airline operating procedures, who makes 
the decisions regarding return to the gate? Is it the pilot? 
Company managers? The FAA? What is the influence of FAA and 
airline flight crew work rules on flight delays, detentions and 
cancellations?
    Representatives of interested and responsible parties 
should be convened by DOT to develop a factual understanding of 
what drives bad outcomes and how they can be avoided. Most 
importantly, Mr. Chairman, joint fact-finding should not be 
limited to insiders such as the airlines and the agencies. To 
earn legitimacy, joint fact-finding must include 
representatives of consumers and travel agents, along with the 
airlines, the airports, FAA, assisted by the independent 
Inspector General.
    The airlines, Mr. Chairman, are resisting compulsion, 
promising again as they did before, to do better. DOT prefers 
marketplace solutions that have no history or chance of 
success. The public frustration with repeated mistreatment must 
be at or near an all-time high. The time for voluntary 
passenger service commitments has passed.
    Congress and DOT should act now, then, to limit Federal 
preemption of State consumer protection laws, require service 
policies be integrated into contracts of carriage, replenish 
DOT's enforcement budgets and promptly convene a meeting of 
responsible interests, including ASTA and representatives of 
consumers, airlines, airports, the FAA and the Inspector 
General, to develop a plan as we have described.
    Thank you very much.
    Mr. Costello. We thank you for your testimony.
    Mrs. Hanni, I wonder if you might just, a few questions. 
One, you have had an opportunity, obviously, to take a look at 
JetBlue's, what they would call a passenger bill of rights, 
spelling out what passengers' rights are, compensation for 
delays, canceled flights and so on. I wonder if you might 
comment on their policies that they have adopted.
    Mrs. Hanni. I admire very much that he came out immediately 
and first of all, gave the passengers a refund for their ticket 
and a free round-trip ticket somewhere, which I think was 
extremely admirable. I also admire that they canceled flights 
the next time that there was a serious weather event that they 
knew they were going to have people either out on the tarmac or 
stuck in the terminal. That was extremely proactive. I was up 
all night, by the way, on March 17th, with a woman whose 
daughter was lost in the Philadelphia airport, from a different 
airline. So JetBlue did the right thing.
    I think their customer bill of rights is pretty 
comprehensive. I don't know yet how many people are or are not 
being compensated. I have had a few people say they are not and 
a few say they are. So it is very hard for me to tell how it is 
working so far. Although I am getting a lot of reports, now 
that I have become the advocate for airline rights, I have 
people text messaging me when they are stuck on the tarmac or 
if their wives are. So I guess the biggest problem is that it 
is not binding unless it is in their contract of carriage, and 
I am not aware that it has been made a part of their contract 
of carriage.
    The other thing is with the airlines, whatever they give 
us, they can take it away. So that appears to be what has 
happened in the past, that there have been agreements made that 
they can then summarily remove for one reason or another. I 
don't know if those agreements were ever incorporated in their 
contracts of carriage, the agreement with the ATA, the 12 
points. What scares me is that they can. And for any reason, 
that they can make a management decision that may benefit them 
financially, but not the passengers.
    Mr. Costello. Let me ask, and of course, the policy has 
only been in place a very short time.
    Mrs. Hanni. Right.
    Mr. Costello. In reviewing what JetBlue did as far as their 
customer bill of rights, is there anything that you would add? 
Would you say that it is pretty comprehensive, as you said, is 
there anything missing?
    Mrs. Hanni. I don't think chronically delayed flights were 
mentioned in their customer bill of rights. Also, the whole 
idea of the controllable irregularities. As I understand it, 
that means that if there is a weather delay for 24 hours, then 
they don't have to compensate. But then if there is an 
additional 24 hours, that is where a controllable irregularity 
becomes an issue and they get to determine. See, the big 
problem is that they get to determine what is weather, they get 
to determine what is a controllable irregularity. It is not us, 
it is not the FAA. It is them.
    So also, in our situation, we were diverted, but we knew 
were weren't going to fly after three hours. So our situation 
was very different than the JetBlue strandings.
    Mr. Costello. Mr. Mitchell, you indicate in your testimony 
that how management responds at JetBlue will determine the 
future success of JetBlue. Do you want to elaborate on that?
    Let me ask, maybe the first question is, you heard what 
Mrs. Hanni just said, that there have been some reports that 
some people have not been compensated. One, have you had, 
either Mr. Mitchell, or Mr. Ruden, have you had any feedback 
concerning the JetBlue policy not being adhered to, and number 
two, I ask both of you about, in particular Mr. Mitchell, the 
effectiveness of what management does with their policy will 
determine the future of the company.
    Mr. Mitchell. To address your second question, I have not 
heard any feedback about passengers being treated unevenly 
against JetBlue's new policy. It could be, I am just not aware 
of it.
    I think the marketplace is watching JetBlue very carefully. 
I can speak very specifically about the corporate marketplace 
that JetBlue has been endeavoring to enter for the last six to 
eight to twelve months. Travel managers and purchasing managers 
in particular are watching the follow-up and the follow-through 
and the actual commitment of JetBlue.
    So they would be hurt in that market, one that they 
desperately want to break into. I am talking about the large 
corporations that buy business travel.
    So I think as well, as long as the press stays on the issue 
and this Committee and the DOT and consumer groups keep a 
bright light shined on JetBlue, they will empower the 
marketplace to further reward or penalize JetBlue for the 
effectiveness.
    Mr. Costello. Thank you.
    Mr. Ruden?
    Mr. Ruden. Mr. Chairman, I don't have any information 
indicating that JetBlue is not complying with what they said. 
It would be surprising if they weren't. There may be individual 
mistakes being made here and there, but I don't expect that 
they will deviate materially from what they have done.
    Whether this is going to have the influence on the 
marketplace that Mr. Mitchell suggests, I am highly skeptical, 
based on the experience of the last eight years.
    Mr. Costello. Well, before we conclude the hearing, let me 
just say that we appreciate your being here today, your 
testimony and your advocacy, in particular, Mrs. Hanni, on 
behalf of customers and the flying public. You heard me say 
earlier, more than once, that we are not going to conclude this 
hearing, put it on the shelf and walk away from it. We are 
going to be aggressive in our oversight. We will work very hard 
to make certain that either from a legislative standpoint or a 
standpoint of the industry coming together and doing what 
JetBlue and American Airlines both have done in proposing a 
passenger bill of rights or customer bill of rights, and making 
certain that they are followed, that is one of the major 
problems, in my judgment, from 1999, is that there is an 
agreement, and the agreement was that Congress said, you work 
it out, they worked it out, it was acceptable, there were 
promises made but promises were not kept.
    The DOT did not do its job in making certain that the 
airlines lived up to their promises, and the Congress did not 
do its job in proper oversight. I assure you that I am 
committed, and members of this Subcommittee are committed to 
following through with this to make certain that customers are 
protected, that they understand their rights, they understand 
the procedures when they book their flight from the beginning 
of the process to the end.
    So we thank you for your testimony.
    Before I conclude the hearing, the Ranking Member has asked 
that we submit for the record hearings on various issues that 
have been conducted by the Subcommittee since 1999. So we will 
enter the hearing list without objection.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Costello. And with that, we again thank you, and this 
concludes the Subcommittee's hearing. Thank you.
    [Whereupon, at 2:10 p.m., the subcommittee was adjourned.]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                    

</pre></body></html>
